APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Fifth
Circuit
(October 8, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Order: (1) Granting in Part and
Denying in Part Officers’ Motion for
Summary Judgment (Dkt. # 53); and
(2) Granting the City’s Motion for
Summary Judgment (Dkt. # 54) in the
United States District Court for the
Western District of Texas, San
Antonio Division
(May 15, 2018) . . . . . . . . . . . . . . . App. 9
Appendix C Summary
of Norman Cooper’s
Ext erna l Inj u r i e s f r o m t he
Bexar County Medical Examiner’s
Office . . . . . . . . . . . . . . . . . . . . . . App. 70
Appendix D Declaration of Nathan Lee
Cooper . . . . . . . . . . . . . . . . . . . . . App. 71

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-50499
[Filed October 8, 2019]
_____________________________________________
NOBLE COOPER; NORMAN COOPER,
)
ESTATE OF; JENNIFER COOPER; NATHAN )
COOPER; CARLY LOPEZ, Individually and
)
as Next Friend of Nason Cooper and Nevon
)
Cooper, Minors; NASON COOPER, A
)
Minor; NEVON COOPER, A Minor,
)
Plaintiffs - Appellees
)
)
v.
)
)
OFFICER OLIVER FLAIG; OFFICER
)
ARNOLDO SANCHEZ,
)
Defendants - Appellants.
)
____________________________________________ )
Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:16-CV-77
Before CLEMENT, ELROD, and DUNCAN, Circuit
Judges.

App. 2
PER CURIAM:*
Officers Oliver Flaig and Arnoldo Sanchez appeal
the district court’s order denying their motion for
summary judgment. The district court determined that
Flaig and Sanchez were not entitled to qualified
immunity. Because the district court incorrectly
applied the qualified immunity standard, we reverse
and render.
I
Mr. Nathan Cooper was alone at his parents’ home
when his brother, Mr. Norman Cooper, arrived.
Norman, who appeared to be on drugs, pounded on the
door. He eventually broke the chain lock and door
frame and entered the home. Nathan called 911 and
explained that he was “scared for his life,” that Norman
“broke in,” and that Nathan did not know if Norman
was “going to hurt [him] or not.” Nathan also told
dispatch that Norman was on drugs and would not let
Nathan out of the house. Officers Flaig and Sanchez
were dispatched to the scene. When they arrived,
Nathan told Sanchez that he did not know if Norman
had a gun and that Nathan feared Norman when
Norman used drugs.
Meanwhile, Flaig and Norman were upstairs in the
home. Sanchez eventually joined them. The parties
dispute some of what happened upstairs, but it is
undisputed that Flaig and Sanchez deployed their

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR R. 47.5.4.

App. 3
tasers multiple times in attempts to detain Norman.
Flaig and Sanchez were eventually able to handcuff
Norman and they then called a supervisor and
emergency medical services to the scene. Flaig and
Sanchez observed that shortly after being handcuffed
Norman became still. This change in demeanor
concerned Flaig and Sanchez and they radioed for
emergency services to “step it up.” Emergency medical
services arrived on the scene and reported that
Norman was unresponsive. He was pronounced dead
shortly thereafter. An autopsy revealed that Norman
died as a result of methamphetamine intoxication
complicated by a prolonged struggle. Also contributing
to his death was an enlarged heart.
Appellees, Noble Cooper; The Estate of Norman
Cooper; Jennifer Cooper; Nathan Cooper; Carly Lopez;
Nason Cooper; and Nevon Cooper, sued Officers Flaig
and Sanchez alleging, among other things, that they
used excessive force. Flaig and Sanchez moved for
summary judgment arguing that qualified immunity
barred the claim. The district court concluded that
because of “unsettlement in the law . . . the court
cannot find as a matter of law that the Officers’ use of
force was ‘objectively reasonable in light of clearly
established law’” and denied qualified immunity on the
excessive force claim.
II
We have jurisdiction to review this appeal.
“[I]nterlocutory appeals from the denial of summary
judgment have been permitted in the qualifiedimmunity context for the purpose of resolving the
abstract legal question of whether the lawlessness of a

App. 4
defendant’s alleged acts had been clearly established at
the time of their commission.” Colston v. Barnhart, 146
F.3d 282, 287 (5th Cir. 1998); see also Cole v. Carson,
935 F.3d 444, 452 (5th Cir. 2019) (en banc).1 Appellees
assert that the denial of summary judgment “was
based on . . . material factual issues,” but this is
incorrect. The district court denied summary judgment
because “the court [could not] find as a matter of law
that the Officers’ use of force was ‘objectively
reasonable in light of clearly established law at the
time the challenged conduct occurred.’” This is a legal
question we have jurisdiction to review. But “[l]ike the
district court, we must view the facts and draw
reasonable inferences in the light most favorable to the
plaintiff and ask whether the defendant would be
entitled to qualified immunity on those facts.” Cole, 935
F.3d at 452.
III
The test for qualified immunity has two steps. “In
the first we ask whether the officer’s alleged conduct
has violated a federal right; in the second we ask
whether the right in question was ‘clearly established’
1

Appellees spend five pages of their brief asking this court to
“revisit and eliminate the collateral order doctrine’s extension to
qualified immunity” established in Mitchell v. Forsyth, 472 U.S.
511 (1985). Appellees urge this court to adopt Justices Brennan
and Marshall’s more narrow reading of the collateral order
doctrine prescribed in their Mitchell dissent. Id. at 343–44
(Brennan, J., dissenting). However, Appellees seemingly fail to
recognize that Mitchell, a United States Supreme Court decision,
binds this court. Neither this panel, nor the Fifth Circuit sitting en
banc, can “revisit and eliminate” the Supreme Court of the United
States’ binding precedent.

App. 5
at the time of the alleged violation, such that the officer
was on notice of the unlawfulness of his or her
conduct.” Id. at 451. To overcome the qualified
immunity defense, Appellees must show that the law
was so clear, under circumstances reasonably
analogous to those Flaig and Sanchez confronted, that
no reasonable officer would have used the amount of
force they used. See Brosseau v. Haugen, 543 U.S. 194,
201 (2004).
Appellees do not meet this burden. They cannot
point to any factually analogous case that would
establish that Flaig and Sanchez’s use of force was
unreasonable.2 In fact, recent Fifth Circuit precedent
involving taser deployment suggests an officer’s use of
force is justified where two or more of the Graham
factors3 support the use of force. See Pratt v. Harris
2

Appellees cite numerous cases, none of which provide analogous
facts. See, e.g., Ramirez v. Martinez, 716 F.3d 369, 379 (5th Cir.
2013) (denying summary judgment where only the first Graham
factor weighed in favor of force used); Newman v. Guedry, 703 F.3d
757, 764 (5th Cir. 2012) (holding that the tasing of a passenger in
a car who “committed no crime, posed no threat to anyone’s safety,
and did not resist the officers or fail to comply with a command”
was objectively unreasonable in light of clearly established law);
Anderson v. McCaleb, 480 F. App’x 768, 773 (5th Cir. 2012)
(unpublished) (denying summary judgment where the officer
continued to tase the plaintiff after the plaintiff ceased resisting
arrest).
3

Graham instructed courts to look to: “[1] the severity of the crime
at issue, [2] whether the suspect poses an immediate threat to the
safety of the officers or others, and [3] whether he is actively
resisting arrest or attempting to evade arrest by flight” when
evaluating excessive force claims. Graham v. Connor, 490 U.S. 386,
396 (1989).

App. 6
Cty., 822 F.3d 174, 182 (5th Cir. 2016); Poole v. City of
Shreveport, 691 F.3d 624, 629 (5th Cir. 2012); Batiste
v. Theriot, 458 F. App’x 351, 355 (5th Cir. 2012)
(unpublished). At least two of the Graham factors
support Flaig and Sanchez’s use of force in this case.
First, it was reasonable for Flaig and Sanchez to
suspect Norman had committed a crime such as
burglary or trespass because Nathan informed 911
dispatch and Sanchez that Norman had broken into the
home and was not allowing Nathan to leave. Second, it
was reasonable for Flaig and Sanchez to believe that
Norman posed a threat to himself, Nathan, and Flaig
and Sanchez given Norman’s erratic behavior and
Nathan’s communication to dispatch and Sanchez that
he was afraid of Norman.
The district court correctly determined that because
two of the Graham factors supported the use of force,
clearly established law would not have put a
reasonable officer on notice that deployment of a taser
under these circumstances was unreasonable. But the
district court nonetheless denied Flaig and Sanchez’s
motion for summary judgment on qualified immunity
grounds. This was legal error. It is exactly because
clearly established law would not have put a
reasonable officer on notice that deployment of a taser
under these circumstances was unreasonable that
Flaig and Sanchez are entitled to qualified immunity.
The district court erred in denying Flaig and Sanchez’s
motion for summary judgment.
REVERSED and RENDERED.

App. 7
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-50499
D.C. Docket No. 5:16-CV-77
[Filed October 8, 2019]
_____________________________________________
NOBLE COOPER; NORMAN COOPER,
)
ESTATE OF; JENNIFER COOPER; NATHAN )
COOPER; CARLY LOPEZ, Individually and
)
as Next Friend of Nason Cooper and Nevon
)
Cooper, Minors; NASON COOPER, A
)
Minor; NEVON COOPER, A Minor,
)
Plaintiffs - Appellees
)
)
v.
)
)
OFFICER OLIVER FLAIG; OFFICER
)
ARNOLDO SANCHEZ,
)
Defendants - Appellants.
)
____________________________________________ )
Appeal from the United States District Court
for the Western District of Texas
Before CLEMENT, ELROD, and DUNCAN, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal
and the briefs on file.
It is ordered and adjudged that the judgment of the
District Court is reversed and rendered.

App. 8
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.

App. 9

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
NO. 5:16-CV-77-DAE
[Filed May 15, 2018]
_______________________________________
NOBLE COOPER, Estate of NORMAN )
COOPER, JENNIFER COOPER,
)
NATHAN COOPER, CARLY LOPEZ,
)
Individually and as Next Friend of
)
Nason Cooper and Nevon Cooper,
)
Minors, NASON COOPER, a Minor,
)
NEVON COOPER, a Minor,
)
Plaintiffs,
)
)
vs.
)
)
CITY OF SAN ANTONIO, OFFICER
)
OLIVER FLAIG, OFFICER
)
ARNOLDO SANCHEZ, and INTERIM
)
POLICE CHIEF ANTHONY
)
TREVINO,
)
Defendants.
)
______________________________________ )

App. 10
ORDER: (1) GRANTING IN PART AND
DENYING IN PART OFFICERS’ MOTION
FOR SUMMARY JUDGMENT (DKT. # 53);
AND (2) GRANTING THE CITY’S MOTION
FOR SUMMARY JUDGMENT (DKT. # 54)
Before the Court are (1) Defendants Officer Oliver
Flaig and Officer Arnoldo Sanchez’s (“Officers”) Motion
for Summary Judgment (Dkt. # 53); and (2) Defendants
City of San Antonio and Anthony Trevino’s (“the City”)
Motion for Summary Judgment (Dkt. # 54). A hearing
was held on these matters on May 3, 2018. At the
hearing, Edward Pina represented Plaintiffs, Nathan
Mark Ralls represented the Officers and the City.
After careful consideration of the memoranda in
support of and in opposition to the motions, as well as
the arguments of counsel at the hearing, the Court, for
the reasons that follow, GRANTS IN PART and
DENIES IN PART the Officers’ motion for summary
judgment, and GRANTS the City’s motion for
summary judgment.
BACKGROUND
This case concerns the death of Norman Cooper
while in the custody of the San Antonio Police
Department. The Estate of Norman Cooper originally
filed this lawsuit in the 131st District Court in Bexar
County, Texas, on December 31, 2015, along with
additional Plaintiffs Noble Cooper (father of Norman
Cooper), Jennifer Cooper (mother of Norman Cooper),
Nathan Cooper (brother of Norman Cooper), Carly
Lopez (wife of Norman Cooper), Nason Cooper (minor
son of Norman Cooper), and Nevon Cooper (minor son

App. 11
of Norman Cooper). (Dkt. # 1-1.) Plaintiffs asserted a
claim pursuant to 42 U.S.C. § 1983, among other
causes of action, against the City of San Antonio,
Officer Oliver Flaig, Officer Arnaldo Sanchez, and
Interim Police Chief Anthony Trevino (collectively,
“Defendants”), alleging that Defendants violated
Norman Cooper’s Fourth and Fourteenth Amendment
rights under the United States Constitution. (Id.)
On January 25, 2016, Defendants removed
Plaintiffs’ state-court petition to this Court on the basis
of federal-question jurisdiction. (Dkt. # 1.) Plaintiffs’
Second Amended Complaint (the “Complaint”), the live
complaint in this case, alleges that on the date of
Norman Cooper’s death, April 19, 2015, Nathan Cooper
called the 911 dispatcher of the San Antonio Police
Department requesting assistance because he was
concerned about his brother’s well-being. (Dkt. # 29 at
¶ 15.) The Complaint states that Nathan had observed
Norman exhibiting unusual behavior during a visit at
their parents’ house, possibly due to drug use; Norman
appeared disoriented and excited, was perspiring and
removing his clothes, and was loudly reciting religious
quotes and ideals. (Id.) Officers Flaig and Sanchez
arrived at the Coopers’ residence shortly thereafter
ostensibly to assist Norman and Nathan, but the
incident ultimately resulted in what Plaintiffs allege to
be an unprovoked and brutal attack on Norman
Cooper. (Id. at ¶ 18.) According to Plaintiffs, Officers
Flaig and Sanchez violently assaulted Norman both
verbally and physically, despite the fact that Norman
never threatened or made physical contact with the
officers. (Id.) They further contend that the assault
culminated in the repeated and prolonged use of

App. 12
multiple Tasers shots on Norman in an upstairs
bedroom. (Id. at ¶¶ 18–26.) Plaintiffs allege that when
Nathan was finally permitted to enter the bedroom, he
found Norman handcuffed and face down on the floor
in respiratory distress. (Id. at ¶¶ 27–32.) According to
Plaintiffs, the Officers failed to monitor Norman’s
breathing or check on Norman’s health and well-being
or allow Nathan to do so. (Id. at ¶¶ 33–35.) Finally, the
officers on the scene contacted Emergency Medical
Services (“EMS”), but when EMS arrived Norman was
already dead. (Dkt. # 29 at 36.)
Plaintiffs allege that the aforementioned conduct of
Defendants was a proximate cause of Norman Cooper’s
death and assert claims under the Texas Tort Claims
Act, the Texas Civil Practice & Remedies Code, and the
Fourth and Fourteenth Amendments of the United
States Constitution pursuant to 42 U.S.C. § 1983. (Dkt.
# 29.)
On October 2, 2017, the Officers and the City each
filed motions for summary judgment on all of Plaintiffs’
claims against them.1 (Dkts. ## 53, 54.) On
November 22, 2017, after being granted an extension of
time, Plaintiffs filed a timely, consolidated response in
opposition. (Dkt. # 59.) On December 6, 2017, the
Officers and the City filed a joint reply in support of
their motions. (Dkt. # 65.) The Court granted Plaintiffs
leave to file a sur-response on February 5, 2018. (Dkt.
# 68.)

1

Both the Officers and the City adopt each other’s motions. (See
Dkts. ## 53, 54.) Thus, the Court will analyze both motions jointly.

App. 13
LEGAL STANDARD
A movant is entitled to summary judgment upon
showing that “there is no genuine dispute as to any
material fact,” and the movant is entitled to judgment
as a matter of law. Fed. R. Civ. P. 56(a); see also
Meadaa v. K.A.P. Enters., L.L.C., 756 F.3d 875, 880
(5th Cir. 2014). A dispute is only genuine “if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986).
The moving party bears the initial burden of
demonstrating the absence of any genuine issue of
material fact. Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986). If the moving party meets this burden, the
nonmoving party must come forward with specific facts
that establish the existence of a genuine issue for trial.
Distribuidora Mari Jose, S.A. de C.V. v.
Transmaritime, Inc., 738 F.3d 703, 706 (5th Cir. 2013)
(quoting Allen v. Rapides Parish Sch. Bd., 204 F.3d
619, 621 (5th Cir. 2000)). “Where the record taken as a
whole could not lead a rational trier of fact to find for
the non-moving party, there is no ‘genuine issue for
trial.’” Hillman v. Loga, 697 F.3d 299, 302 (5th Cir.
2012) (quoting Matsushita Elec. Indus. Co., Ltd. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986)).
In deciding whether a fact issue has been created,
the court must draw all reasonable inferences in favor
of the nonmoving party, and it “may not make
credibility determinations or weigh the evidence.”
Tiblier v. Dlabal, 743 F.3d 1004, 1007 (5th Cir. 2014)
(quoting Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133, 150 (2000)). At the summary judgment

App. 14
stage, evidence need not be authenticated or otherwise
presented in an admissible form. See Fed. R. Civ.
P. 56(c); Lee v. Offshore Logistical & Transp., LLC, 859
F.3d 353, 355 (5th Cir. 2017). However,
“[u]nsubstantiated assertions, improbable inferences,
and unsupported speculation are not sufficient to
defeat a motion for summary judgment.” United States
v. Renda Marine, Inc., 667 F.3d 651, 655 (5th Cir. 2012)
(quoting Brown v. City of Hous., 337 F.3d 539, 541 (5th
Cir. 2003)).
ANALYSIS
The Officers move for summary judgment on the
following: (1) the Estate of Norman Cooper’s capacity
to bring this suit; (2) whether Nathan Cooper has a
cause of action; (3) whether they are entitled qualified
immunity; (4) Plaintiffs’ excessive force claim;
(5) Plaintiffs’ failure to provide medical care claim;
(6) Plaintiffs’ claims based on negligence; and
(7) Plaintiffs’ state tort claims. (Dkt. # 53.) The City
moves for summary judgment on Plaintiffs’ claims for
negligence and deprivation of constitutional rights.
(Dkt. # 54.)
I.

Claims Brought on Behalf of the Estate of
Norman Cooper

Defendants argue that the Complaint alleges that
it is brought on behalf of the Estate of Norman Cooper,
but that there is little, if any, actual reference to a
claim brought on behalf of the Estate. (Dkt. # 53 at 2.)
Defendants contend that although Plaintiffs do not
specifically allege a survivorship claim, to the extent
the Complaint can be read to assert such a claim, it

App. 15
should be dismissed because a survival claim belongs
only to the decedent for injuries sustained while the
decedent was still alive. (Id. at 2–3.) Defendants assert
that (1) none of the Plaintiffs have alleged that they are
suing in representative capacity on behalf of the Estate
of Norman Cooper, (2) Plaintiffs have not pled that any
of them have been appointed as the personal
representative of the Estate, and (3) Plaintiffs have not
alleged that an administration of the Estate of Norman
Cooper is pending or necessary. (Id. at 3–4.)
Defendants thus contend that they are entitled to
summary judgment on any claims asserted on behalf of
the Estate of Norman Cooper. (Id.)
In Plaintiffs’ response to the pending summary
judgment motions, Plaintiffs contended that there was
an administration of the Estate pending. (Dkt. # 59 at
23.) Indeed, in a supplement filing to the Court
submitted on March 29, 2018, Plaintiffs submitted
evidence of the March 19, 2018 state court order
appointing Plaintiff Noble Lee Cooper, Jr. (“Noble”),
the decedent’s father, as the Administrator of Norman
Cooper’s Estate, as well as the Certified Letters of
Administration. (Dkts. ## 74-1, 74-2.) Thus, given
Noble’s appointment as the Administrator of the
Estate, Plaintiffs assert that they have properly
brought these claims pursuant to section 71.021 of the
Texas Civil Practice and Remedies Code. (Id.)
“Standing under the Civil Rights Statutes is guided
by 42 U.S.C. § 1988, which provides that state common
law is used to fill the gaps in administration of civil
rights suits.” Pluet v. Frasier, 355 F.3d 381, 383 (5th
Cir. 2004); 42 U.S.C. § 1988(a). “Therefore, a party

App. 16
must have standing under the state wrongful death or
survival statutes to bring a claim under 42 U.S.C.
§§ 1981, 1983, and 1988.” Id. (citing Rhyne v.
Henderson Cnty., 973 F.2d 386, 390–91 (5th Cir.
1992)); Handley v. City of Seagoville, Tex., 798 F. Supp.
1267, 1269 (N.D. Tex. 1992). Under the Texas Survival
Statute, heirs, legal representatives, and the estate of
the injured person may bring a survival action. Tex.
Civ. Prac. & Rem. Code § 71.021(b). “Generally, only
personal representatives of the estate are entitled to
bring a personal injury action.” Austin Nursing Ctr.,
Inc. v. Lovato, 171 S.W.3d 845, 848–50 (2005) (citing
Shepherd v. Ledford, 962 S.W.2d 28, 31 (1998)). Courts
have recognized that, where the individual bringing
suit on behalf of the estate is not the estate’s
representative, the question is one of capacity; the
estate plainly has standing. See, e.g., Lovato, 171
S.W.3d. at 848–50 (“A change in the status of the party
authorized to assert the decedent’s personal injury
claim, however, does not change the fact that the
decedent has been personally aggrieved and would not,
therefore, eliminate the decedent’s justiciable interest
in the controversy.”); Pluet, 355 F.3d at 383 (“Although
Fredrick Pluet’s estate would have standing under the
[Texas Survival Statute] to pursue his 28 U.S.C. § 1983
claims, at the time she filed her complaint, Sandra
Hardeman was not the administrator of Fredrick
Pluet’s estate.”).
Defendants’ contention is correct that there is no
question in this case that Plaintiffs lacked the capacity
to bring this lawsuit on behalf of the Estate of Norman
Cooper at the time the suit was initiated. Nevertheless,
Texas law allows for later-acquired capacity to cure

App. 17
lack of capacity, even if by the time capacity is
acquired, the statute of limitations has run on the
claims brought. Lovato, 171 S.W.3d at 853; Lorentz v.
Dunn, 171 S.W.3d 854, 856 (2005); Damian v. Bell
Helicopter Textron, Inc., 352 S.W.3d 124, 142–43 (Tex.
App.—Fort Worth 2011, pet. denied).
In two cases decided on the same day, the Texas
Supreme Court made clear that post-limitations
acquisition of capacity cures a pre-limitations lack of
capacity, and the survival claim is not barred by the
statute of limitations because the subsequent
acquisition of capacity relates back. Lovato, 171 S.W.3d
at 853; Lorentz v. Dunn, 171 S.W.3d 854, 856 (2005).
Furthermore, Lovato also provides that, when capacity
is challenged, “the trial court should abate the case and
give plaintiff a reasonable time to cure any defect.”
Lovato, 171 S.W.3d at 853 n.7.
Therefore, because Texas law clearly provides that
defects in capacity may be cured without rendering a
claim time-barred, and because the Texas Supreme
Court has indicated a preference for allowing plaintiffs
whose capacity has been challenged “a reasonable time
to cure any defect,” the Court finds that Plaintiffs have
cured the original defect in capacity in this case.2

2

The Texas Supreme Court also determined that “it would be
pointless to require that the plaintiff file an ‘amended’ pleading
containing the same allegations of capacity as were stated in her
original petition. The estate commenced the suit before limitations
expired; [the plaintiff] cured the defect in her capacity before the
case was dismissed. Under those circumstances, the estate had
standing and was ultimately represented by a person with capacity
to pursue the claim on its behalf.” Lovato, 171 S.W.3d at 853.

App. 18
Lovato, 171 S.W.3d at 853 n.7. Accordingly, the Officers
motion for summary judgment on this issue is denied.
II.

Nathan Cooper’s Claims

The Officers next move for summary judgment on
the claims of Plaintiff Nathan Cooper (“Nathan”), the
brother of the decedent, on the basis that it is unclear
what claims Nathan is asserting in this case. (Dkt. # 53
at 4.) The Officers contend that Nathan (1) has no
cause of action under § 1983; (2) is barred from
bringing a state tort bystander cause of action against
them; and (3) has no standing to maintain a wrongful
death claim or survivorship claim under § 1988. (Id.)
The Officers also argue that they are entitled to
summary judgment on Noble and Jennifer Cooper’s
(parents of the decedent) punitive damages claims. (Id.
at 6.)
A. Bystander Claim Under Section 1983
The Officers first argue that to the extent Nathan
brings a bystander claim under 42 U.S.C. § 1983,
Nathan has not properly alleged that his personal
rights were violated. (Id.) The Officers contend that
although Nathan has alleged a bystander claim as a
result of watching the interaction between Defendants
and Norman Cooper, as well as being present at the
time of Norman’s death, there is no constitutional right
to be free from witnessing police action. (Id. at 4–5.)
The Court agrees with the Officers’ contention. “[I]t
is well-established that a civil rights claim must be
based upon a violation of a plaintiff’s personal rights.”
Thomas v. Frederick, 766 F. Supp. 540, 556 (W.D. La.
1991). “A bystander who witnesses a police action, but

App. 19
who is not himself an object of that action, cannot
recover for any resulting emotional injuries under
§ 1983, although there may be such a claim under state
tort law.” Id. “There is no constitutional right to be free
from witnessing police action.” Id. (citing Grandstaff v.
Borger, 767 F.2d 161, 172 (5th Cir. 1985), cert. denied
480 U.S. 916 (1987); Coon v. Ledbetter, 780 F.2d 1158
(5th Cir. 1986); Archuleta v. McShan, 897 F.2d 495
(10th Cir. 1990)). Accordingly, the Court will grant
summary judgment in favor of the Officers for Nathan’s
bystander claim brought § 1983.
B. State Tort Bystander Claim
The Officers further argue that they are entitled to
summary judgment on any state tort bystander claim
Nathan may assert against them because such a claim
is barred by the election of remedies provision of
Section 101.106, et. seq. of the Texas Tort Claims Act
(“TTCA”), as they argue below. (Dkt. # 53 at 5.)
Indeed, the TTCA bars a plaintiff’s intentional tort
claim against a governmental employee when the
plaintiff sues both the employee and the governmental
unit that employed him or her. Bustos v. Martini Club
Inc., 599 F.3d 458, 463 (5th Cir. 2010). “If a suit is filed
under [the TTCA] against both a governmental unit
and any of its employees, the employees shall
immediately be dismissed on the filing of a motion by
the governmental unit.” Tex. Civ. Prac. & Rem. Code
Ann. § 101.106(e). Accordingly, to the extent Nathan
asserts such a cause of action against the Officers,
Nathan’s state tort bystander claim is dismissed.

App. 20
C. Nathan’s Claims under § 1988
The Officers next argue that they are entitled to
summary judgment to the extent Nathan asserts a
wrongful death or survivorship claim under 42 U.S.C.
§ 1988 because Nathan has no standing to bring these
claims. (Dkt. # 53 at 5.) According to the Officers,
under the Texas Wrongful Death Statute, Nathan is
not a named beneficiary, nor have Plaintiffs alleged
that Nathan is pursuing a claim on behalf of the Estate
of Norman Cooper to properly bring a claim for
survivorship as discussed above. (Id.)
Again, pursuant to § 1988, the Court must look to
Texas state law to determine whether Nathan has
standing to assert a wrongful death claim under
§ 1983. See Aguillard v. McGowen, 207 F.3d 226, 231
(5th Cir. 2000). The Texas Wrongful Death statute
provides that only the decedent’s spouse, children, and
parents may bring an action for wrongful death. See
Tex. Civ. Prac. & Rem. Code § 71.004. Thus, because
Nathan is neither of these, he cannot maintain a
wrongful death action and summary judgment is
granted in favor of the Officers for such a claim brought
by Nathan.
To the extent Nathan brings a claim for
survivorship on behalf of the Estate of Norman Cooper,
he may only do so if he is the personal representative
of the estate. See Lovato, 171 S.W.3d at 848–50. Here,
the evidence indicates that Noble, not Nathan, is the
personal representative of the Estate of Norman
Cooper. Thus, the Court will grant summary judgment
on any survivorship claim brought by Nathan.

App. 21
D. Noble and Jennifer Cooper’s Punitive
Damages Claims
The Officers also contend that they are entitled to
summary judgment on Noble and Jennifer Cooper’s
(again, parents of the decedent) claims for punitive
damages. (Dkt. # 53 at 6.) The Officers assert that they
are not “heirs” of the decedent as defined by the Texas
Constitution and common law of the state of Texas.
(Id.)
Article XVI, section 26 of the Constitution of the
State of Texas, which governs the recovery of punitive
damages in wrongful death actions, reads as follows:
Every person, corporation, or company, that may
commit a homicide, through wilful act, or
omission, or gross neglect, shall be responsible,
in exemplary damages, to the surviving
husband, widow, heirs of his or her body, or such
of them as there may be, without regard to any
criminal proceeding that may or may not be had
in relation to the homicide.
Tex. Const. art. XVI, § 26.
“It is well established that this provision defines the
class of persons who are entitled to recover punitive
damages for wrongful death; parents of the deceased
. . . are not included in article XVI, § 26 and are
therefore unable to recover punitive damages.” Gen.
Chem. Corp. v. De La Lastra, 852 S.W.2d 916, 923
(Tex. 1993) (citing Winnt v. Int’l & G.N. Ry. Co., 74
Tex. 32, 11 S.W. 907, 908 (Tex. 1889)). Therefore, the
Court will grant the Officers’ motion for summary

App. 22
judgment insofar as it seeks to dismiss Noble and
Jennifer Cooper’s request for punitive damages.3
III.

Qualified Immunity

The Officers argue that they are entitled to
qualified immunity on Plaintiffs’ claims. (Dkt. # 53 at
8.) “To state a claim under § 1983, a plaintiff must first
show a violation of the Constitution or of federal law,
and then show that the violation was committed by
someone acting under color of state law.” Atteberry v.
Nocona Gen. Hosp., 430 F.3d 245, 252–53 (5th Cir.
2005). “The doctrine of qualified immunity protects
government officials from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a person would have known.” Pearson v. Callahan, 555
U.S. 223, 231 (2009) (internal quotation marks
omitted). “Qualified immunity balances two important
interests—the need to hold public officials accountable
when they exercise power irresponsibly and the need to
shield officials from harassment, distraction, and
liability when they perform their duties reasonably.”
Id. Because qualified immunity is immunity from suit
rather than a defense to liability, immunity questions
should be resolved at the earliest possible stage in
litigation. Id. at 231–32.
“To defeat a claim of qualified-immunity, the
plaintiff has the burden to demonstrate the
3

Plaintiffs’ response to the summary judgment motion appears to
assert for the first time a claim by Noble and Jennifer Cooper for
bystander liability. (See Dkt. # 59 at 25.) However, Plaintiffs may
not raise a bystander claim for the first time in their response.

App. 23
inapplicability of the defense.” McLin v. Ard, 866 F.3d
682, 689 (5th Cir. 2017) (citing Atteberry, 430 F.3d at
253; McClendon v. City of Columbia, 305 F.3d 314, 323
(5th Cir. 2002) (en banc) (per curiam)). To discharge
this burden, the plaintiff must satisfy a two-prong test.
U.S. ex rel. Parikh v. Brown, 587 F. App’x 123, 127–28
(5th Cir. 2014); Atteberry, 430 F.3d at 251–52. First,
the plaintiff must show, viewing the summary
judgment evidence in the light most favorable to him,
the defendant violated a constitutional right. Brown v.
Callahan, 623 F.3d 249, 253 (5th Cir. 2010); Freeman
v. Gore, 483 F.3d 404, 410 (5th Cir. 2007). If the court
determines “that the alleged conduct did not violate a
constitutional right, [the] inquiry ceases because there
is no constitutional violation for which the government
official would need qualified immunity.” Lytle v. Bexar
Cnty., Tex., 560 F.3d 404, 410 (5th Cir. 2009). Second,
the plaintiff must show the defendant’s actions were
objectively unreasonable in light of the law that was
clearly established at the time of the alleged violation.
Brown, 623 F.3d at 253; Freeman, 483 F.3d at 411. If
the court answers both of these questions in the
affirmative, the official is not entitled to qualified
immunity. Lytle, 560 F.3d at 410. “Even if the
government official’s conduct violates a clearly
established right, the official is entitled to qualified
immunity if his conduct was objectively reasonable.”
Davis v. McKinney, 518 F.3d 304, 317 (5th Cir. 2008)
(citing Hare v. City of Corinth, Miss., 135 F.3d 320, 325
(5th Cir. 1998)).
“For immunity to apply, the actions of the officer
must be objectively reasonable under the
circumstances, such that a reasonably competent

App. 24
officer would not have known his actions violated thenexisting clearly established law.” Mesa v. Prejean, 543
F.3d 264, 269 (5th Cir. 2008) (internal quotation marks
omitted). The focus of the inquiry “should be on ‘fair
warning’: qualified immunity is unavailable . . . so long
as the prior decisions gave reasonable warning that the
conduct then at issue violated constitutional rights.”
Wernecke v. Garcia, 591 F.3d 386, 393 (5th Cir. 2009)
(internal quotation marks omitted). “Courts have
discretion to decide which prong of the qualifiedimmunity analysis to address first.” Morgan v.
Swanson, 659 F.3d 359, 371 (5th Cir. 2011). The Court
will consider whether the Officers are entitled to
qualified immunity as to each of Plaintiffs’ § 1983
claims in turn.
A. Excessive Force Claim
Plaintiffs state a § 1983 claim for the violation of
the Fourth Amendment right to be free from excessive
force, alleging that the Officers used excessive force to
effect the detention of Norman Cooper. (Dkt. # 29 at
19.) The Fourth Amendment confers a right to be free
from excessive force during an arrest. Deville v.
Marcantel, 567 F.3d 156, 169 (5th Cir. 2009) (per
curiam). To establish a claim of excessive force under
the Fourth Amendment, a plaintiff must show “(1) an
injury (2) which resulted directly and only from the use
of force that was clearly excessive to the need and
(3) the force used was objectively unreasonable.” Cass
v. City of Abilene, 814 F.3d 721, 731 (5th Cir. 2016)
(citation and internal quotation marks omitted).
“Excessive force claims are necessarily factintensive; whether the force used is ‘excessive’ or

App. 25
‘unreasonable’ depends on ‘the facts and circumstances
of each particular case.’” Deville, 567 F.3d at 167
(quoting Graham v. Connor, 490 U.S. 386, 396 (1989)).
Guiding this inquiry, the Supreme Court has identified
three sets of facts which deserve careful consideration
in determining whether the force used is “excessive” or
“unreasonable”: (1) the severity of the crime at issue;
(2) whether the suspect poses an immediate threat to
the safety of the officers or others; and (3) whether the
suspect is actively resisting arrest or attempting to
evade arrest by flight. Graham, 490 U.S. at 396; see
also Griggs v. Brewer, 841 F.3d 308, 313–14 (5th Cir.
2016) (“A court must measure the force used under the
facts as a reasonable person would perceive them, not
necessarily against the historical facts”). Courts must
evaluate the officer’s action “from the perspective of a
reasonable officer on the scene, rather than with the
20/20 vision of hindsight.” Poole v. City of Shreveport,
691 F.3d 624, 628 (5th Cir. 2012) (citing Graham, 490
U.S. at 396).
In support of their motion, the Officers offer
evidence that Officer Flaig received a dispatch call for
a family disturbance from a male caller (Nathan
Cooper), indicating that his brother (Norman Cooper)
was intoxicated, screaming, and refusing to leave their
parents’ home, who were out of town at the time. (Dkt.
# 53-8; Ex. G-1 (COBAN recording of Officer Flaig).)
According to Officer Flaig, he arrived on the scene, and
noticed that an SUV was parked in front of the
house—partially in the driveway and sidewalk. (Dkt.
# 53-8 at 2; Ex. G-1 (COBAN recording of Officer
Flaig).) Additionally, Officer Flaig indicates that the
vehicle was parked in an angled position, its lights

App. 26
were on, and the driver door was swung open with the
engine running. (Dkt. # 53-8 at 2; Ex. G-1 (COBAN
recording of Officer Flaig).) Given this situation, Officer
Flaig “believed that something was out of the
ordinary.” (Dkt. # 53-8 at 2.) Officer Flaig further
indicated that when he approached the door of the
residence, he knocked on the door, but that “the door
moved open on his knock,” and that he saw a man walk
up to him. (Id.) Upon entering, Officer Flaig stated that
he noticed that the front door was damaged at the
frame, and that the trim was broken. (Id.) According to
Officer Flaig, the man who first walked up to him, later
identified as Nathan Cooper, told him that “he”
(Norman) broke the door and that “he” (Norman) was
not supposed to be there. (Id.) Thereafter, Officer Flaig
stated that he saw a man (Norman) come into the room
“who was significantly bigger in stature than [Flaig]
and Nathan.” (Id.) Officer Flaig stated that Norman
was not wearing a shirt, his belt was undone, his pants
were loose, and he looked to be profusely sweating. (Id.)
Norman was also rambling, loud, and confrontational.
(Dkt. # 53-8 at 2.) According to Officer Flaig, Nathan
informed him that he was scared of Norman.4 (Id.)
Officer Flaig indicated that he attempted to calm
Norman, asking him to “cool down” and “chill out.” (Id.)

4

Defendants offer the COBAN audio recording from both of the
Officers concerning this incident; however, much of the audio is
hard to decipher, although there are a couple of voices on the audio
which match the Officers’ account of the events as stated in their
declarations. (See COBAN recordings of Officers Flaig and
Sanchez; see also Dkt. # 53-8, Dkt. # 53-9.)

App. 27
A short time later, the evidence indicates that
Officer Sanchez arrived on the scene. (Dkt. # 53-8 at 2.)
Officer Sanchez had a conversation on the front porch
with Nathan where Nathan told him that the house
belonged to his parents—Noble and Jennifer, who were
out of town. (Dkt. # 58-9 at 2.) According to Officer
Sanchez, Nathan told him that Norman had broken
into the house, was causing a disturbance, and refused
to leave. (Id.) The COBAN audio recording of the
incident indicates that Nathan told Officer Sanchez
that he did not know if Norman had a gun, and that
when Norman was on drugs, “he scared the crap out of
[Nathan].” (Id.; Ex. H-1 (COBAN recording of Officer
Flaig).)
Meanwhile, after asking Norman for his
identification, Officer Flaig accompanied Norman
upstairs in the house. They entered a small bedroom
where Norman, according to Officer Flaig, began
aggressively approaching Officer Flaig and then
backing away as he was shouting, and that he did this
repeatedly. (Dkt. # 53-8 at 2.) By this time, Officer
Sanchez had also come upstairs into the bedroom. (Id.)
Officer Flaig indicated that he “was unsure of
[Norman’s] behavior” and that he “felt uncomfortable.”
(Id.) Once again, Officer Flaig asked Norman for his
identification, but Norman did not comply. (Id.)
According to Officer Flaig, Norman continued to move
his hands and that his approach was aggressive in
nature. (Id.) Officer Flaig stated that he became
concerned for his and Officer Sanchez’s safety, so he
tried to detain Norman with handcuffs until he could
further investigate the situation. (Id.) Officer Flaig
further determined that he “thought the situation could

App. 28
result in an emergency detention because Norman
appeared to be a danger to himself.” (Dkt. # 53-8 at 2.)
Both Officers told Norman to turn around, but he
would not comply after being asked to do so several
times. (Id.) According to the Officers, at this point,
Officer Sanchez pulled out his Taser device, pointed it
at Norman’s abdomen area, asked again for Norman to
turn around, and told Norman that he would use it on
him if he did not comply. (Id.) The Officers indicate
that Norman saw the Taser, but continued to refuse to
comply after being asked several more times. (Id.) Still,
Officer Flaig stated that Officer Sanchez re-holstered
his Taser, attempting to use only his hands to place
Norman in handcuffs, but that Norman actively
resisted by pulling his arms away from the Officers.
(Id. at 2–3.)
According to Officer Flaig, Norman proceeded to
pick up an open laptop computer on a desk and
attempted to explain something on it. (Id. at 3.) At this
time, Officer Flaig states that he thought Norman may
attempt to use the laptop as a weapon, so both he and
Officer Sanchez pulled out their Tasers. Officer Flaig
then deployed his Taser, and one prong struck
Norman’s thigh. (Id.) Officer Flaig indicates that this
strike had no effect on Norman, but that the laptop fell
to the floor. (Id.) Officer Sanchez then deployed his
Taser, and that it was somewhat effective because
Norman’s chest began flexing and got stiff. (Id.)
According to Officer Flaig, Norman fell backwards
against the window and then fell onto the floor between
the desk and the window, but that his head did not hit
anything. (Id.) While the strike was somewhat
effective, Officer Flaig stated that the Officers could not

App. 29
get to Norman’s arms because he was behind the desk.
(Id.)
Thereafter, Officer Flaig indicates that Norman “got
back up and on his feet,” but that he was still not
complying and they could not get their hands on him to
handcuff him because he was still pulling away from
the Officers. (Dkt. # 53-8 at 3.) According to Officer
Flaig, Norman was a very large man whose “strength
was immense and [he] could not hold onto his arm.”
(Id.) Officer Flaig, thinking there was no longer a
cartridge in his Taser, decided he would try to “drystun” Norman. (Id.) At some point, Officer Flaig’s baton
fell to the floor, concerning him that Norman would try
to get the baton and use it on him or Officer Sanchez.
(Id.) Officer Flaig indicates that he again used his
Taser, now realizing there was indeed a cartridge
inside of it, but that it was ineffective on Norman
because he was too close even though it struck
Norman’s left chest or rib area. (Id.) Officer Flaig
believes this strike was not effective at all, and that
Officer Flaig himself actually got stung by one of the
Taser’s wires. (Id.) At this point, the evidence indicates
that Officer Sanchez again deployed his Taser, striking
Norman’s chest area. (Id.) Officer Flaig states that this
strike “was somewhat effective,” and that he could see
Norman’s body stiffen and that Norman was back on
the floor on his right shoulder. (Id.) According to Officer
Flaig, he had his handcuffs in his hand, but he placed
them in his pocket because he needed his hands free to
put his hands on Norman. (Id.) Officer Flaig put his
hands on Norman’s right arm, and Officer Sanchez had
Norman’s left arm. (Id.) Officer Flaig stated that he
pulled out Officer Sanchez’s handcuffs and placed them

App. 30
on Norman, but that it was a struggle because Norman
was big and was still actively resisting. (Id.)
Thereafter, Officer Sanchez got on the radio, asking for
Emergency Medical Services (“EMS”) and a supervisor
because of the use of the Taser. (Id.)
According to Officer Flaig, Norman was situated on
his right shoulder when both officers tried to turn
Norman over onto his stomach, but Norman was
pushing with his legs and actually pushed Officer
Sanchez backwards. (Dkt. # 53-8 at 3.) Officer Flaig
asked over his radio for the first arriving officer to
bring leg restraints and, upon arrival, two other
officers came into the bedroom with leg irons. (Id.)
Nevertheless, according to Officer Flaig, when the
other officers arrived, Norman was no longer
combative, but was still breathing and laying on his
right shoulder and pelvic area, with his head and face
on the right side facing the door. (Id.)
At this point, Officer Flaig stated that he “could tell
[Norman] was not fighting or talking anymore,” and he
“saw a change in his condition as it went 180 degrees,”
and that he was “unsure if it was a change in his
health or if he was taking a breather.” (Id. at 5.) In any
case, Officer Flaig indicates that he and another officer
still decided to put on the leg restraints, but that he
notified EMS “to step it up over the radio because [he]
was concerned for [Norman’s] health and wellbeing.”
(Id.) Officer Flaig stated that “[w]e wound up double
cuffing him with the handcuffs . . . because he was such
a large man” and that even though he was calm, Officer
Flaig was not sure if he was done fighting. (Id.)
According to Officer Flaig, he and Officer Sanchez

App. 31
checked Norman’s pulse and he was still breathing, so
they never started any medical resuscitation on him.
(Id.) Officer Sanchez stated that he believed Norman
was exhausted from the struggle and that was why he
was not moving, but the Officers continued to monitor
Norman’s condition and even placed a pillow
underneath his head to keep him comfortable. (Dkt.
# 53-9 at 4.) According to the Officers, upon the arrival
of EMS, it was determined that Norman was
unresponsive, and the handcuffs were removed so that
Norman could be treated. (Id.) Norman was
pronounced dead a short time later. (Dkt. # 53-8 at 5.)
Plaintiffs’ version of the night in question differs
from the Officers’ version. (See Dkt. # 29; Dkt. # 53-3 at
29.) Nathan asserts that the Officers did not have
consent to enter the house. (Dkt. #59-2 at 10.) Nathan
contends that it was Officer Flaig, and not Norman,
who was loud and aggressive toward Norman. (Id. at
11.) According to Nathan, Norman was not yelling or
screaming at him or the Officers, but was instead
singing and preaching biblical gospel. (Id. at 9.)
Additionally, Nathan contends that he never heard
Norman threaten either officer, nor attempt to touch or
make physical contact with either. (Dkt. #59-4 at 17.)
Plaintiffs also argue that Norman never threatened to
use the laptop computer as a weapon, citing the
differences in the Officers’ accounts in their report
made right after the incident, and their declaration
made several months later. (See Dkts. ## 59-8, 59-9,
59-10, 59-11.)
Additionally, while Nathan was not in the room
while the Officers were upstairs with Norman, he

App. 32
heard the Officers tase Norman at least seven times
prior to handcuffing him. (Dkt. # 29 at 7; Dkt. # 53-8 at
4.) Nathan asserts that when he finally reached the
bedroom where the Officers were with Norman, he saw
Norman face-down on the floor with his hands behind
his back and he was not resisting in any way. (Dkt.
# 53-3 at 29.) Nathan contends that this position,
combined with the Officers’ weight on top of Norman’s
back and neck was avoidable, excessive, and
unnecessary, ultimately increasing the stress on
Norman’s heart and causing his death. (Dkt. # 29 at 8.)
1. Whether the Officers Violated a
Constitutional Right
Again, to overcome the Officers’ claims of qualified
immunity,5 Plaintiffs must show: “(1) an injury,
(2) which resulted directly and only from a use of force
that was clearly excessive, and (3) the excessiveness of
which was clearly unreasonable.” Poole, 691 F.3d at
628. Here, Norman undisputedly suffered an injury;
therefore, the relevant inquiries are whether the injury
resulted from a use of force that was clearly excessive
and whether the excessiveness was clearly
unreasonable. These inquiries are intertwined. See id.
Relevant to these inquiries are the Graham factors,
again: (1) the severity of the crime at issue, (2) whether
the suspect poses an immediate threat to the safety of
the officers or others, and (3) whether the suspect is

5

Given that Officer Flaig and Officer Sanchez’s actions were
simultaneous concerning the incident which gives rise to Plaintiffs’
claims of excessive force in this case, the Court will conduct the
qualified immunity analysis together for the Officers.

App. 33
actively resisting arrest or attempting to evade arrest
by flight. Graham, 490 U.S. at 396.
The first Graham factor suggests a low threshold for
excessive force. Under the facts presented, it is not
entirely clear whether Norman had committed any
crime prior to the Officers’ use of force. Indeed, Officer
Flaig’s declaration states that he “decided to detain
[Norman] with handcuffs until [he] could figure out
what exactly we had other than a broken door and him
high [on drugs].” (Dkt. # 53-8 at 3.) Still, given the
surrounding circumstances and Nathan’s call for police
assistance, Officer Flaig stated that he thought
Norman “could have been trespassing or burglarizing
the house,” and that Officer Flaig thought an
emergency detention was warranted “because Norman
appeared to be a danger to himself.” (Id.)
Under the second Graham factor, a court considers
whether the suspect poses an immediate threat to the
safety of the officer or others. Even under Plaintiffs’
version of the events, it is evident from the record that
Norman posed a threat not only to himself, but to
Nathan as well as the Officers. (See, e.g., Nathan
Cooper’s 911 call—Officer’s Exhibit A-1; Noble Cooper’s
911 call—Officer’s Exhibit A-1.) It is well-documented
that Norman was suspected of being under the
influence of drugs at the time of the incident and that
he was very sweaty with his shirt off and pants
unbuckled. (See, e.g., Nathan Cooper’s 911 call—
Officer’s Exhibit A-1; Noble Cooper’s 911 call—Officer’s
Exhibit A-1, Dkt. # 53-3 at 5, Dkt. #53-4 at 2–3, Dkt.
# 53-5 at 4.) Additionally, there is evidence in the
record that Nathan related to Officer Flaig that

App. 34
Norman was not supposed to be at the house and that
Norman broke down the door.6 (See Nathan Cooper’s
911 call—Officer’s Exhibit A-1; Noble Cooper’s 911
call—Officer’s Exhibit A-1; Dkt. # 53-7 at 6; Dkt. # 53-8
at 2.) Additionally, the 911 call recordings from Nathan
Cooper and Noble Cooper on the evening in question
support that Nathan believed that Norman was a
threat to Nathan. (See, e.g., Nathan Cooper’s 911
call—Officer’s Exhibit A-1; Noble Cooper’s 911
call—Officer’s Exhibit A-1.) Nathan’s 911 call states
that he “is scared for [his] life,” that Norman “broke
in,” and that he doesn’t know if Norman “going to hurt
[him] or not.” (Nathan Cooper’s 911 call—Officer’s
Exhibit A-1.) Likewise, Noble Cooper’s call informs the
911 dispatcher that Norman “is on drugs,” and that “he
is holding the other one” and “won’t let him out of the
house.” (Noble Cooper’s 911 call—Officer’s Exhibit A-1.)
There is also evidence that Norman’s demeanor on the
evening was “loud[] and confrontational,” and that he
6

In deposition, however, Nathan testified that, while Norman
“broke the latch on the door,” Nathan “was going to let him in.”
(Dkt. # 53-3 at 3.) Although not specifically alleged, to the extent
Plaintiffs bring a §1983 claim for a Fourth Amendment violation
for warrantless entry into the home, the Court will grant the
Officers’ qualified immunity for this claim. See Rockwell v. Brown,
664 F.3d 985, 995 (5th Cir. 2011) (“Under the Fourth Amendment,
a warrantless intrusion into a person’s home is ‘presumptively
unreasonable unless the person consents, or unless probable cause
and exigent circumstances justify’ the intrusion.”) (quoting Gates
v. Tex. Dep’t of Protective & Regulatory Servs., 537 F.3d 404, 420
(5th Cir. 2008)). The evidence in the record clearly indicates that
the Officers had probable cause to enter based on the totality of the
circumstances, especially in relation to the 911 calls for assistance
to the home, and therefore it was not unreasonable for the Officers
to enter the house—whether Nathan let them inside or not.

App. 35
would come back and forth at Officer Flaig
“aggressively and then step away” and that he would
do it repeatedly. (Dkt. # 53-8 at 3.) The COBAN audio
recordings from both Officers supports that Norman
was shouting very loudly and was confrontational to
the Officers when repeatedly asked to turn around so
that the Officers could place him in handcuffs prior to
being Tased. (COBAN Audio Recording from Officers
Flaig and Sanchez—Defendants’ Exhibit G-1 and H-1.)
Officer Flaig related also that Norman was bigger than
him and that he got an uncomfortable feeling when
Norman would come into his personal space. (Id.)
Additionally, Officer Flaig indicated that he dropped
his baton on the floor and he feared Norman might be
able to get to it and use it on the Officers. (Id.)
The third Graham factor requires a court to
consider whether the suspect is actively resisting arrest
or attempting to evade arrest by flight. For this factor,
the Court only has the Officers’ account of the events
because Nathan, by his own admission, was not in the
bedroom with Norman and the Officers prior to
Norman’s restraint in handcuffs.7 (Dkt. # 53-3 at 6.)

7

Nathan testified that he could hear the electrical noise from the
Taser devices “going off,” and that he could hear Norman making
noises like “[a]hh, ahh,” and “Jesus” in reaction. (Dkt. # 53-3 at 6.)
Additionally, during the incident, Nathan had placed a call to his
father Noble and the two were connected for the duration of the
incident. (Id.) Norman placed a call to his mother from a phone in
the bedroom where his mother apparently heard the events with
the Officers and Norman. (Dkt. # 53-8 at 3.) According to Officer
Flaig, while Norman did not realize that his mother was on the
other end of the line, Officer Flaig could hear a “female’s voice
yelling from the phone and [that he] believe[d] it was coming from

App. 36
According to Officer Flaig, he asked Norman to turn
around so that he could place him in handcuffs, but
Norman did not comply. (Dkt. # 53-8 at 3.) Thereafter,
Officer Sanchez asked Norman to comply, but Norman
did not comply and “kept talking about the gospel and
how he was going to preach it.” (Id.) After the Officers
made several attempts, asking Norman to “turn
around” and “put your hands behind your back,” the
COBAN audio recordings indicate that Norman
continued to resist. (COBAN Audio Recording from
Officers Flaig and Sanchez—Defendants’ Exhibit G-1
and H-1.) Additionally, the audio indicates that one of
the Officers warned Norman that “[t]his is your last
chance” to comply prior to using the Taser. (Id.)
According to the Officers’ version of the events, it was
at this point that a decision was made by the Officers
to first threaten use of the Taser device before actually
using it. (Id.) As already described above, Officer
Sanchez pointed the laser at Norman’s abdomen and
told him that he was going to use it if Norman did not
comply, but Norman continued to refuse to comply. (Id.)
According to Officer Flaig, and supported by the audio,
they asked Norman “numerous times” to comply but
Norman never did prior to their use of the Taser. (Id.)
By Officer Flaig’s account, he and Officer Sanchez tried
an additional time to use their hands to effectuate the
detention, but that it did not work because Norman
“was actively resisting by pulling his arms away from”
them. (Id. at 4.) Subsequently, Officer Flaig recites that
the speaker.” (Id.) Importantly, however, none of the Plaintiffs’
proffered evidence directly contradicts one of the key facts attested
to by the Officers: Norman continued to resist arrest even after he
was tasered multiple times.

App. 37
he and Officer Sanchez decided to use their Taser to
attempt to detain Norman. (Id.) And, after tasing
Norman, one of the Officers is heard on the audio
pleading for Norman to “just put em behind your back.”
(COBAN Audio Recording from Officers Flaig and
Sanchez—Defendants’ Exhibit G-1 and H-1.) After
discharging their Taser devices at least seven times on
Norman, with varying degrees of success, the Officers
were finally able to restrain Norman with handcuffs.
(Id.)
Still, in regard to the third Graham factor, Plaintiffs
have presented some evidence that they believe
demonstrates Norman was not actively resisting the
arrest, only passively resisting. (See Dkt. # 59-1 at 7.)
Plaintiffs cite the San Antonio Police Department
(“SAPD”) Manual, wherein it defines “active resistance”
as “the resistance offered by an individual in the form
of active physical aggression towards an officer or
another person and includes the threat of or actual use
of a weapon by an individual against an officer or
another person.” (Dkt. # 59-7 at 1.) The SAPD Manual
defines “passive resistance” as “a refusal to comply
with an officer’s verbal commands or open/empty hands
control techniques and does not convey a threat to the
officer or another person.” (Id. at 14.) In regard to the
laptop which the Officers contend that Norman picked
up and might possibly use as a weapon, Plaintiffs offer
evidence that Norman was concerned about his brother
Nathan viewing pornography, and that Norman did not
attempt to utilize the computer as a weapon contrary
to the Officers’ account. (Dkt. # 59-1 at 7.) As support,
Plaintiffs provide Officer Flaig’s report of the incident
made soon after Norman’s death, wherein he states

App. 38
only that Norman “picked up an opened laptop off the
desk and he was trying to explain something on it,” and
that both Officers “pulled out [their] Tasers at this
time.” (Dkt. # 59-8 at 3.) Additionally, Officer Sanchez’s
report, made around the same time, does not mention
Norman picking up a computer at all. (See Dkt. # 59-9.)
Plaintiffs also rely on the Use of Force reports made by
the Officers in which both Officers checked the box
“No” for the question “Did the Officer believe the
suspect had a weapon?” (Dkts. ## 59-10, 59-11.)
Applying the Graham factors, the Court finds that
a fact issue exists as to whether the force used by the
Officers to restrain Norman was objectively reasonable.
Under the first two Graham factors, burglary or
trespassing is a serious offense, and the record
supports that Norman’s behavior on the evening of his
death was erratic and potentially violent and that he
was a threat to at least himself.8 However, in regard to
the third Graham factor, while the Officers’ account of
the events and their audio recordings support that
Norman had been, and continued to, demonstrate
resistance during the course of the emergency
detention, viewing the evidence in a light most
favorable to Plaintiffs, Plaintiffs have offered evidence
which creates a factual dispute as to whether Norman
was only passively resisting the arrest and whether he
did in fact attempt to use the laptop computer as a

8

There is also evidence that the Officers perceived Norman to be
experiencing “excited delirium,” for which they had been trained
to recognize the physical behaviors of, including violent behavior,
aggression, violently resisting being controlled or restrained, and
self-induced injury. (See Dkt. # 53-17.)

App. 39
weapon. If Norman was only passively resisting, the
Officers’ use of the Taser device—deployed at least
seven times—may not have been objectively
reasonable.
In any case, the Taser shots were eventually
effective for their purpose—Norman was eventually
restrained and no longer posed a threat to himself or
others. While the record evidence in this case indicates
that Norman behaved aggressively, and that he
undisputedly continued to resist, either passively or
aggressively, after the Taser device was used, the
Court cannot conclude at this time that deploying the
Taser device at least seven times during the incident
was clearly excessive or clearly unreasonable.
Nevertheless, the record is clear that the Officers
ceased any use of force after Norman was restrained in
handcuffs, although the Officers’ testimony indicates
that Norman continued to kick for a short time after
his restraint.
2. Whether the
Established

Right

was

Clearly

While the Court has determined that a factual issue
exists as to whether the Officers used excessive force
against Norman in violation of the Fourth Amendment,
the Court must still determine if the Officers are
entitled to qualified immunity under the second prong
of the analysis. Again, as stated earlier, the second
prong of the qualified immunity analysis entitles the
Officers to qualified immunity if their use of force was
“objectively reasonable in light of clearly established
law at the time the challenged conduct occurred.” Bush
v. Strain, 513 F.3d 492, 501 (5th Cir. 2008). And, “while

App. 40
the right to be free from excessive force is clearly
established in a general sense, the right to be free from
the degree of force employed in a particular situation
may not have been clear to a reasonable officer at the
scene.” Id. at 502.
“The central concept is that of ‘fair warning’: The
law can be clearly established ‘despite notable factual
distinctions between the precedents relied on and the
cases then before the Court, so long as the prior
decisions gave reasonable warning that the conduct
then at issue violated constitutional rights.’” Kinney v.
Weaver, 367 F.3d 337, 350 (5th Cir. 2004) (en banc)
(quoting Hope v. Pelzer, 536 U.S. 730, 740 (2002)). And,
there need not be a case directly on point, but “existing
precedent must have placed the statutory or
constitutional question beyond debate.” Ashcroft v. alKidd, 563 U.S. 731, 741 (2011). “If officers of reasonable
competence could disagree as to whether the plaintiff’s
rights were violated, the officer’s qualified immunity
remains intact.” Tarver v. City of Edna, 410 F.3d 745,
750 (5th Cir. 2005).
Recently, in an unpublished opinion, the Fifth
Circuit in Bailey v. Preston, 702 F. App’x 210 (5th Cir.
July 13, 2017), distinguished between cases where an
officer used force after a suspect was already
restrained, and those cases where the use of force was
restricted to the time before restraint. The Fifth Circuit
panel in that case determined that the uncontroverted
evidence indicated the officers stopped using force on
the suspect once he was handcuffed and therefore the
officers’ use of force, under the specific facts of that

App. 41
case, was not objectively unreasonable in light of
clearly established law. Id. at 214.
The Officers rely on the Fifth Circuit’s holding in
Bailey as support for their entitlement to qualified
immunity on the basis that neither officer used any
force on Norman after he was restrained and placed in
handcuffs. (Dkt. # 53 at 21.) The Officers cite to
Nathan’s testimony, wherein he admits that he did not
see Norman tased after he was placed in handcuffs.
(Dkt. # 53-3 at 30.) While it is certainly true, and there
is no dispute that the Officers did not use the Taser on
Norman after he was restrained, this does not appear
to be the core complaint in Plaintiffs’ excessive force
claim. Instead, Plaintiffs’ claim focuses on the Officers’
use of force prior to Norman’s restraint. (See Dkt. # 29
at 21.) Still, Plaintiffs appear to complain, although not
well-briefed, that the Officers’ placement of Norman in
a prone position after he was handcuffed, constituted
excessive force because it inhibited his ability to
breathe and caused him to go into cardiac arrest. (See
Dkt. # 29 at 21.) While such a contention may support
one of their other allegations against the Officers or the
City, the Court finds that Plaintiffs have not presented
sufficient evidence that such conduct constituted
excessive force in violation of the Fourth Amendment
after Norman was placed in handcuffs.
Regarding the Officers’ use of force prior to
Norman’s restraint, though no binding case law is
directly on point, a review of recent Fifth Circuit cases
involving Taser deployment suggests an officer’s use of
force is justified where at least two of the Graham
factors support the use of force. See, e.g., Pratt v.

App. 42
Harris Cnty., Tex., 822 F.3d 174, 182 (5th Cir. 2016);
Poole, 691 F.3d 624, 629 (5th Cir. 2012) (affirming
grant of summary judgment to officers where the
plaintiff, who was pulled over during a traffic stop,
verbally and physically resisted the officers and posed
an immediate threat to their safety, and the officers
reacted with “measured and ascending” actions to the
plaintiff’s escalating resistance); Batiste v. Theriot, 458
F. App’x 351, 355 (5th Cir. 2012) (reversing denial of
qualified immunity where it was reasonable for the
officers to chase and Taser a fleeing suspect with a
felony arrest warrant). On the other hand, where none
of the Graham factors counsel in favor of the officer’s
use of force, the Fifth Circuit has concluded a plaintiff’s
excessive force claim survives summary judgment. See,
e.g., Newman v. Guedry, 703 F.3d 757, 762–63 (5th Cir.
2012) (concluding the officers’ tasing of the plaintiff
was objectively unreasonable where the plaintiff was
pulled over for a minor traffic stop, did not attempt to
flee, and did not present a serious threat); Massey v.
Wharton, 477 F. App’x 256, 263 (5th Cir. 2012)
(affirming denial of qualified immunity to officer who
tased the plaintiff twice and pepper sprayed him, even
though the plaintiff was not a threat to the officers,
was not attempting to flee, and was driving away at the
officer’s command); Autin v. City of Baytown, 174 F.
App’x 183, 185–86 (5th Cir. 2005) (affirming denial of
qualified immunity where the officer tased a plaintiff
multiple times and the plaintiff was, at most,
committing the minor crime of criminal mischief, was
not a threat to the officers or others, and was not
resisting arrest).

App. 43
As discussed above, at least two of the Graham
factors counsel in favor of the force the Officers used
against Norman. Norman, at the very least,
(1) exhibited some resistance to the Officers’ commands
to present his identification and later to comply with
their attempt to restrain him for an emergency
detention, (2) was suspected of a serious crime, and
(3) the Officers reasonably believed he posed an
immediate threat to himself, the safety of the officers,
and his brother, Nathan. Thus, the Graham factors
would not have put a reasonable officer on notice that
deployment of a Taser under these circumstances was
unreasonable in light of clearly established law.
Nevertheless, given the unsettlement in the law
regarding this second prong of the analysis, and
without any very certain or clear guidance in the law,
the Court cannot find as a matter of law that the
Officers’ use of force was “objectively reasonable in
light of clearly established law at the time the
challenged conduct occurred.” See Bush, 513 F.3d at
501. Accordingly, the Officers’ motion for summary
judgment on this issue is denied. The Court finds that
genuine issue of material fact exists as to whether the
Officers are entitled to qualified immunity on Plaintiffs’
§ 1983 claim for excessive force.
B. Failure to Provide Medical Care Claim
Plaintiffs also allege a § 1983 claim against the
Officers for failure to provide medical care, stating that
“[i]t was plain to see that Norman Cooper was in
extremis,” and that the Officers “made absolutely no
effort to check on Norman Cooper’s health or wellbeing.” (Dkt. # 29 at 9.) Plaintiffs further allege that

App. 44
the Officers also prevented Nathan from checking on
his brother’s health and well-being. (Id.) The Officers
move for summary judgment on this claim, arguing
that they are entitled to qualified immunity because
neither officer was deliberately indifferent to Norman’s
medical needs, and that after they became concerned
for his health, they took active steps to help him. (Dkt.
# 53 at 28.)
“[P]retrial detainees have a constitutional right,
under the Due Process Clause of the Fourteenth
Amendment, not to have their serious medical needs
met with deliberate indifference on the part of the
confining officials.” Thompson v. Upshur Cty., 245 F.3d
447, 457 (5th Cir. 2001) (citing Estelle v. Gamble, 429
U.S. 97, 103 (1976)). Deliberate indifference means
that: “(1) the official was aware of facts from which an
inference of substantial risk of serious harm could be
drawn; (2) the official actually drew that inference; and
(3) the official’s response indicates the official
subjectively intended that harm to occur.” Id. at
458–59. “[A]ctual knowledge is critical to the inquiry.
A state actor’s failure to alleviate ‘a significant risk
that he should have perceived but did not’ . . . does not
rise to the level of deliberate indifference.” McClendon
v. City of Columbia, 305 F.3d 314, 326 n.8 (5th Cir.
2002) (quoting Farmer v. Brennan, 511 U.S. 825, 837
(1994)).
Thus, deliberate indifference “cannot be inferred
merely from a negligent or even a grossly negligent
response to a substantial risk of serious harm,” Upshur
Cty., 245 F.3d at 459; it is a “stringent standard of
fault.” Bd. of Cty. Comm’rs of Bryan Cty. v. Brown, 520

App. 45
U.S. 397, 410 (1997). Moreover, “[a] serious medical
need is one for which treatment has been recommended
or for which the need is so apparent that even laymen
would recognize that care is required.” Gobert v.
Caldwell, 463 F.3d 339, 345 n.12 (5th Cir. 2006).
Here, even assuming that Plaintiffs had sufficient
evidence that the Officers were aware of a substantial
risk of harm to Norman, the Court finds that Plaintiffs
have failed to prove deliberate indifference. While it is
true that Norman had been subjected to at least seven
Taser activations, the evidence indicates that the
Officers became concerned for Norman’s health after he
became quiet and stopped moving. Although, as Officer
Flaig indicates, he was not sure if Norman was taking
a “breather” from resisting, or was experiencing a
change in his health, Officer Flaig’s COBAN audio
recording clearly indicates that Officer Flaig radioed
for EMS to “step it up” because he was concerned for
Norman’s well-being. (Ex. G-1 (COBAN recording of
Officer Flaig).) The evidence also indicates that Officer
Sanchez placed a pillow under Norman’s head, and
that when he checked his pulse, Norman was still
breathing. (Dkt. # 59-8 at 4.) Additionally, Officer
Sanchez’s report on the night of Norman’s death states
that once he became concerned about Norman’s health,
the Officers “immediately rolled the suspect from
facedown onto his side and positioned his head so as to
make sure his airway was open.” (Id.) Officer Sanchez
“put on gloves and remember[ed] checking his pulse at
least twice and he had a pulse both times,” and that he
stayed with Norman until EMS arrived, placing a
pillow under his head and keeping him comfortable.
(Id.)

App. 46
In response to the Officers’ motion, Plaintiffs have
not offered sufficient evidence, if any, that the Officers
had subjective knowledge of, and were deliberately
indifferent to, Norman’s medical needs. Plaintiffs have
therefore failed to present evidence that would satisfy
the stringent standard for showing deliberate
indifference; accordingly, the Officers’ motion for
summary judgment, with respect to Plaintiffs’ claim
that Norman received inadequate medical care, is
granted.
IV.

Negligent and Grossly Negligent Use of
Handcuffs and Tasers Against the Officers

Plaintiffs also allege claims against the Officers for
“negligent and grossly negligent use of handcuffs and
Tasers,” pursuant to the Texas Tort Claims Act
(“TTCA”). (Dkt. # 29 at 7.) The Officers move for
summary judgment on these claims, arguing that the
claims are legally barred by the TTCA’s Election of
Remedies provision, which states in pertinent part that:
If a suit is filed against an employee of a
governmental unit based on conduct within the
general scope of that employee’s employment
and if it could have been brought under this
chapter against the governmental unit, the suit
is considered to be against the employee in the
employee’s official capacity only. On the
employee’s motion, the suit against the employee
shall be dismissed unless the plaintiff files
amended pleadings dismissing the employee and
naming the governmental unit as defendant on
or before the 30th day after the date the motion
is filed.

App. 47
Tex. Civ. Prac. & Rem. Code § 101.106(f) (“Section
101.106(f)”). The Officers contend that Plaintiffs have
conceded that the Officers were acting within the
general scope of their employment with the City at the
time of the incident, and furthermore, that Texas state
law has determined that even claims based on
intentional torts are subject to the provisions of Section
101.106(f). (Dkt. # 53 at 30.)
The Court finds that the Election of Remedies
provision of the TTCA bars Plaintiffs’ state law
negligence claims against the Officers. In interpreting
this provision, the Texas Supreme Court in Franka v.
Velasquez held that any state law tort claim brought
against a government employee in his individual
capacity based on actions within the general scope of
his or her employment must be dismissed. 332 S.W.3d
367, 381–85 (Tex. 2011). District courts generally abide
by this construction of the statute. See, e.g., Estate of
Aguirre v. City of San Antonio, No. 5:15-cv-371-DAE, at
*54 (W.D. Tex. May 19, 2017); Perez v. Texas A&M
Univ. at Corpus Christi, Civ. A. No. 2:13-CV-225, 2013
WL 6230353, at *12 (S.D. Tex. Dec. 2, 2013) (finding
that, under Section 101.106(f), tort “claims against the
individual defendants—in both their individual and
official capacities and for both money and injunctive
relief—must be dismissed” (internal citations omitted)).
Here, the Officers are undisputedly employees of
the City, and were concededly “acting within the course
and scope of their employment or official duties and in
furtherance of the duties of their office or employment”
with the City’s police department. See Dkt. # 29 at 10;
see also Ikossi-Anastasiou v. Bd. of Supervisors of La.

App. 48
State Univ., 579 F.3d 546, 550 (5th Cir. 2009) (“Factual
assertions in the complaint are ‘judicial admissions
conclusively binding’ on the plaintiff.” (quoting Morales
v. Dep’t of Army, 947 F.2d 766, 769 (5th Cir. 1991))).
Where Plaintiffs’ Complaint alleges the Officers
utilized handcuffs and the Taser devices negligently
and grossly negligently during their attempt to detain
Norman, these are tort claims that fall squarely within
the TTCA. See Bernard v. City of Hous., Civil Action
No. H-15-734, 2017 WL 1088348, at *9 (S.D. Tex.
Mar. 2, 2017) (“[S]ection 101.106(f) of the TTCA applies
to all common-law tort theories” (citing Franka, 332
S.W.3d at 369)). Therefore, per the plain meaning of
the TTCA, the claims must be dismissed upon the
employees’—here, the Officers’—motion. Accordingly,
the Court grants summary judgment in favor of the
Officers on Plaintiffs’ state law negligence and grossly
negligent claims under the TTCA.
V.

Violation of SAPD Policies

Plaintiffs have also alleged that the Officers
violated SAPD procedure 512.090(10) by tasing a
person they knew to be under the influence of drugs,
and that they also violated SAPD procedure 601.07 A,
by failing to use reasonable care and diligence to
preserve the lives, health and safety of prisoners. (Dkt.
# 29 at 32.) Upon review, the Court finds that even if
the Officers violated an SAPD procedure,9 “[u]nder
9

Plaintiffs have submitted evidence that both Officers received
written reprimands for violating SAPD Standard Operating
Procedure 512.09(O)(10), which states that a Taser device should
not be used on a person known to be under the influence of drugs.
(See Dkt. # 59-21, Dkt. # 59-22.)

App. 49
§ 1983, the issue is whether [the Officers] violated the
Constitution, not whether [they] should be disciplined
by the local police force.” Stroik v. Ponseti, 35 F.3d 155,
159 n.4 (5th Cir. 1994) (quoting Smith v. Freland, 954
F.2d 343, 347 (6th Cir. 1992)). The Fifth Circuit has
determined that “[a] city can certainly choose to hold
its officers to a higher standard of liability than that
required by the Constitution without being subjected to
increased liability under § 1983.” Id. Accordingly, the
Court will grant summary judgment in favor of the
Officers for Plaintiffs’ claims against them based on the
alleged violations of SAPD procedure.
VI.

State Law Negligent Use of Tangible
Property Claim Against the City

Plaintiffs have also alleged a negligence claim
against the City on the basis that the Officers’ misuse
of tangible personal property—i.e., negligent use of
handcuffs, leg restraints, and Tasers—led to Norman’s
death. (Dkt. # 29 at 12.) The City moves for summary
judgment on this claim, arguing that Plaintiffs cannot
circumvent the TTCA’s intentional tort exception to a
waiver of liability by pleading the Officers’ use of
handcuffs and the Taser devices was negligent. (Dkt.
# 54 at 4.) The Officers contend that their use of the
handcuffs and the Taser constitutes intentional
conduct as a matter of law for which the City has
immunity. (Dkt. # 54 at 4.) In other words, the City
argues that Plaintiffs’ negligence claims do not fall
within the limited waiver of sovereign immunity under
the TTCA. (Id.)
In response, Plaintiffs contend that their negligence
claim is not based on any intentional acts of the

App. 50
Officers, but are instead based on the Officers’ inaction
after Norman was restrained and had problems
breathing. (Id.) Plaintiffs further assert that they are
not arguing that either Officer intended to kill Norman,
only that their negligent actions “set into motion
foreseeable physiological stresses that caused
Norman’s death.” (Id. at 4.) For instance, Plaintiffs
contend that the Officers’ actions became negligent
when they knew, or should have known, that placing
Norman face down on the floor with his hands behind
his back after being Tased multiple times, with their
added weight and force on his back in order to handcuff
Norman, caused Norman to gasp and stop breathing.
(Id. at 5.) Plaintiffs assert that the Officers had a duty
to Norman to use their City-issued equipment—
handcuffs and Tasers—in a non-negligent manner, and
that it was foreseeable that the Officers’ inattention to
an arrestee or detainee in handcuffs would have
difficulty breathing and die; therefore, according to
Plaintiffs, the City can and should be held liable under
the TTCA. (Id.)
Under the doctrine of sovereign immunity, a
governmental unit is not liable for the torts of its
officers or agents in the absence of a constitutional or
statutory provision creating such liability. Tex. Civ.
Prac. & Rem. Code Ann. § 101.001 et seq.; Dallas Cty.
Mental Health & Mental Retardation v. Bossley, 968
S.W.2d 339, 341 (Tex. 1998), cert. denied, 525 U.S.
1017 (1998); State v. Terrell, 588 S.W.2d 784, 785 (Tex.
1979). The TTCA creates a limited waiver of sovereign
immunity. Tex. Civ. Prac. & Rem. Code Ann. § 101.021.
In order for immunity to be waived under the TTCA,
the claim must arise under one of the three specific

App. 51
areas of liability for which immunity is waived. Id.;
Alvarado v. City of Brownsville, 865 S.W.2d 148, 155
(Tex. App.—Corpus Christi 1993), rev’d on other
grounds, 897 S.W.2d 750 (Tex. 1995). The three specific
areas of liability for which immunity has been waived
are: (1) injury caused by an employee’s use of a motordriven vehicle; (2) injury caused by a condition or use
of tangible personal or real property; and (3) claims
arising from premises defects. Tex. Civ. Prac. & Rem.
Code § 101.021. However, the waiver of immunity does
not extend to claims “arising out of assault, battery,
false imprisonment, or any other intentional tort.” Tex.
Civ. Prac. & Rem. Code § 101.057. The Legislature has
not created, statutorily or otherwise, any exception to
the intentional tort exclusion.
Here, despite their argument to the contrary,
Plaintiffs have attempted to characterize their claim in
terms of negligent rather than intentional conduct.
Thus, the Court finds that the Officers’ use of
handcuffs, leg restraints, and Taser devices in the
present case was intentional conduct. “If a plaintiff
pleads facts which amount to an intentional tort, no
matter if the claim is framed as negligence, the claim
generally is for an intentional tort and is barred by the
TTCA.” Harris Cty. v. Cabazos, 177 S.W.3d 105, 111
(Tex. App.—Houston [1st Dist.] 2005, no pet.) (citations
omitted). Texas courts have consistently held that
claims based on factual allegations of intentional
conduct cannot be masked as negligence claims simply
to circumvent the intentional tort exclusion of the
TTCA. See, e.g., id.; City of Waco v. Williams, 209
S.W.3d 216, 222 (Tex. App.—Waco 2006, pet. denied);
Harris Cty. v. Cabazos, 177 S.W.3d 105, 110–113 (Tex.

App. 52
App.—Houston [1st Dist.] 2005, no pet.); Medrano v.
City of Pearsall, 989 S.W.2d 141, 144–45 (Tex.
App.—San Antonio 1999, no pet.).
Accordingly, insofar as Plaintiffs have sued the City
for state law tort claims arising out of the Officers’
intentional conduct, the City enjoys immunity from
such claims. Tex. Civ. Prac. & Rem. Code § 101.057; see
also Pineda v. City of Hous., 175 S.W.3d 276, 279 (Tex.
App.—Houston [1st Dist.] 2004, reh’g overruled)
(immunity not waived for intentional torts of employees
which involved allegations of excessive force and
assault); City of Garland v. Rivera, 146 S.W.3d 334,
338 (Tex. App.—Dallas 2004, no pet.) (immunity not
waived for officers use of pepper spray, handcuffs, and
dog during arrest of plaintiff); City of San Antonio v.
Dunn, 796 S.W.2d 258, 261 (Tex. App.—San Antonio
1990, writ denied) (immunity not waived where
plaintiff’s claims arose out of allegations of false arrest
and excessive force because these are intentional torts).
The Court concludes that the City is immune from
Plaintiffs’ state law negligence claims on this basis and
these claims must be dismissed with prejudice.
VII.

State Law Negligent Training Claims
Against the City

The City also contends that Plaintiffs’ negligent
training claims do not fall within the limited waiver of
immunity under the TTCA and are therefore barred by
the TTCA. (Dkt. # 54 at 4.) The City argues that
Plaintiffs have not properly alleged an injury resulting
from the “condition or use of tangible personal or real
property,” and that Texas law doesn’t recognize such a

App. 53
claim that “information” is tangible property for which
immunity from suit is waived. (Dkt. # 54 at 7.)
Plaintiffs’ complaint alleges that “the officers were
trained or should have been in the increased dangers of
shocking a person with a Taser multiple times as well
as the increased dangers of more than one officer
tasing the same individual who is exhibiting signs of
excited delirium and/or mental illness.” (Dkt. # 29 at
12.) Plaintiffs argue that the law is unsettled whether
a “negligent use of information” can be maintained in
Texas, but that the Court here should allow such a
claim. (Dkt. # 59 at 6.)
Despite Plaintiffs’ arguments to the contrary, the
Fifth Circuit has held that “[t]he TTCA is . . . not the
appropriate vehicle for claims of negligent failure to
train or supervise.” Goodman v. Harris Cty., 571 F.3d
388, 394 (5th Cir. 2009). “Such claims are not within
the purview of the TTCA because ‘a plaintiff must
allege an injury resulting from the condition or use of
tangible personal or real property’ and ‘information is
not tangible personal property, since it is an abstract
concept that lacks corporeal, physical, or palpable
qualit[ies].’” Id. (quoting Texas Dep’t of Pub. Safety v.
Petta, 44 S.W.3d 575, 580 (Tex. 2001)). Therefore,
because failure to train or supervise is not a proper
cause of action under the TTCA, Petta, 44 S.W.3d at
580–81, the City is entitled to summary judgment on
Plaintiffs’ state law claims of negligent training, or by
extension, negligent use of handcuffs, leg restraints,
and Taser devices.

App. 54
VIII. Constitutional Claims Against the City
In addition to his claims against the Officers,
Plaintiffs also seek relief against the City for its
allegedly unconstitutional practices or policies. (Dkt.
# 29.) These claims are based on the City’s alleged
failure to properly train, supervise, regulate,
and/or discipline officers who routinely use
excessive force in making arrests including
Defendants (who have not, to date, been
disciplined in any meaningful way for the acts
complained of herein), or to otherwise control
their employees and the failure to promulgate
proper guidelines for the use of force and deadly
force constitutes an official policy, practice or
custom of condoning unjustified use of deadly
force in violation of the constitutional rights of
the decedent and others and serves to condone
the illegal behavior as alleged.
(Dkt. # 29 at 22–23.) Although not well-pled, Plaintiffs
also appear to allege a constitutional claim against the
City for inadequate training regarding medical
treatment for prisoners. (Id. at 10.) Additionally,
Plaintiffs assert a constitutional claim for lack of
proper or adequate training on how to recognize the
signs of positional asphyxiation and excited delirium.
A. Municipal Liability Under § 1983
In Monell v. Dept. of Social Serv., 436 U.S. 658
(1978), the Supreme Court held that municipalities and
local government agencies cannot be held liable for
constitutional torts under § 1983 under a theory of
respondeat superior, id. at 691, but they can be held

App. 55
liable “when execution of a government’s policy or
custom, whether made by its lawmakers or by those
whose edicts or acts may fairly be said to represent
official policy, inflicts the injury.” Id. at 694. In other
words, merely establishing a constitutional violation by
an employee of a local government entity is not enough
to impose liability upon that entity under § 1983.
Rather, to succeed on a Monell claim against a local
government entity, the plaintiff must establish (1) an
official policy or custom, of which (2) a policymaker can
be charged with actual or constructive knowledge, and
(3) a constitutional violation whose “moving force” is
that policy or custom. McGregory v. City of Jackson,
335 F. App’x 446, 448 (5th Cir. 2009) (citing Rivera v.
Hous. Indep. Sch. Dist., 349 F.3d 244, 247–49 (5th Cir.
2003)). Locating an official “policy” or “custom” ensures
that a local government entity will be held liable only
for violations of constitutional rights that resulted from
the decisions of those officials whose acts may fairly be
said to be those of the government entity itself. Bryan
Cty. Comm’rs v. Brown, 520 U.S. 397 (1997).
B. Policy or Practice
A plaintiff can hold a city liable for an official
practice or custom that violated his constitutional
rights using a failure to train or supervise theory.
Roberts v. City of Shreveport, 397 F.3d 287, 292 (5th
Cir. 2005). To do so, a plaintiff must show that the city
is responsible for failing to provide proper training or
supervision due to deliberate indifference, and that
failure actually caused the plaintiff’s injury. Id. In the
context of police encounters, the failure must be a
result of the city’s deliberate indifference to the rights

App. 56
of those with whom the police come into contact. Brown
v. Bryan Cnty., Okla., 219 F.3d 450, 459 (5th Cir.
2000). A plaintiff can prove deliberate indifference by
showing that the inadequacy of training or supervision
is “obvious and likely to result in a constitutional
violation.” Cousin v. Small, 325 F.3d 627, 637 (5th Cir.
2003).
Although failure to train and supervise typically
require evidence of a pattern of similar violations,
“under certain circumstances, § 1983 liability can
attach for a single decision not to train an individual
officer even where there has been no pattern of
previous constitutional violations.” Sanders-Burns, 594
F.3d at 381; Brown, 219 F.3d at 459. “[W]ith respect to
specific officers, a need for more or different training
can be so obvious and the inadequacy of training so
likely to result in a violation of constitutional right that
the [county] can reasonably be said to have been
deliberately indifferent to the need for training.” Id.
“For liability to attach based on an ‘inadequate
training’ claim, a plaintiff must allege with specificity
how a particular training program is defective.”
Roberts, 397 F.3d at 293.
Here, Plaintiffs argue that the City is responsible
for the Officers’ conduct because of the City’s failure
and refusal to follow their own established policies and
procedures in training its officers. (Dkt. # 59 at 11.)
First, Plaintiffs cite a portion of Procedure 501 of the
SAPD’s General Manual which discusses that an officer
should understand that “protection of property and
apprehension of criminal offenders is subservient to the
protection of life including their own.” (See Dkt. #53-14

App. 57
at 2–4.) Procedure 501 also requires officers to consider
several factors when assessing the need to use force.
(Id.) Plaintiffs apparently argue that the City did not
properly train its officers on this policy and that they
elevated the apprehension of Norman over the
protection of his life. (Dkt. # 59 at 9–10.)
Next, Plaintiffs point to Procedure 512 in support of
their argument, which states, inter alia, that: (1) “no
more than one officer at a time should activate [a Taser
device] against a person”; (2) “[t]hroughout the [Taser]
incident, [Taser] operators will continually assess
compliance level and breathing ability of the subject
before applying additional cycles to the subject,” and
that following the Taser activation, “officers should not
use a restraint technique that restricts breathing”; and
(3) “[a]ttention to the subject(s) after utilization of the
[Taser] is vital,” and “Officers needs to be aware and
look for obvious signs of injury that may incidental to
[Taser] use.” (Dkt. # 59-19.) Procedure 512 further
states that “[Electronic Control Devices] shall not be
utilized in the following circumstances: . . . [a]gainst
persons known to be under the influence of drugs.” (Id.
at 6.) Plaintiffs cite Procedure 512 in support of their
argument that the City never actually trained its
officers in conformity with this procedure, despite
newly enacting Procedure 512 in 2008.10 Plaintiffs

10

Plaintiffs cite an October 5, 2008 San Antonio Express News
Article discussing that the SAPD did not have any “parameters on
how many times officers could shock someone and didn’t require
training on the risks of shocking someone on drugs.” (Dkt. # 59-34.)
According to Plaintiffs, SAPD changed its policies, enacting
Procedure 512 in response to this article. (Dkt. # 59 at 15.)

App. 58
assert that the Officers used the Taser device on
Norman simultaneously in violation of Procedure 512,
and that the Officers failed to assess Norman’s
compliance before deploying the Taser again, as well as
failed to use a restraint technique that did not restrict
Norman’s breathing. (Dkt. # 59 at 16.)
In further support of their contentions, Plaintiffs
offer evidence of an email sent on October 16, 2015,
from Captain James Flavin, the Executive Officer of
the SAPD, to an attorney in the Bexar County District
Attorney’s Office, which states:
To follow up on our conversation from yesterday,
here is what I have found . . . Sometime around
November of 2014, discussion began between the
SAPD Training Academy Tactics Supervisor . . .
and [the] Tactics Coordinator . . . concerning the
phrase in the SAPD General Manual Procedure
512-Electronic Control Devices, which read,
“ECDs [Electronic Control Devices such as Taser
devices] shall not be utilized in the following
circumstances: Against persons known to be
under the influence of drugs.” The “shall not”
language in the procedure was found by the
Academy Tactics staff to be in conflict with
manner in which officers had been and were
being trained/certified with ECDs at the SAPD
Training Academy as well as in conflict with the
limitations and recommendations from the ECD
manufacturer (Taser International). The
Training Academy Tactics staff made the
recommendation to change the “shall not”
language to “should not” in order to allow the

App. 59
officers the opportunity to evaluate all the
information they received at the scene before
they decided to deploy or not deploy the ECD. In
June of 2015, the language in the ECD
procedure was changed to reflect the “should
not” language and the revised procedure was
released to all Department members. It should
be noted, the “shall not” language in the
procedure was always in conflict with actual
training practices of the SAPD Training
Academy and the Tactics instructors who taught
the ECD classes. The SAPD Training Academy
and its instructors have never taught officers
that they shall not use an ECD on persons
known to be under the influence of drugs.
Officer Oliver Flaig #0078 was Taser certified in
2012 and he attended Taser recertification each
year (2013, 2014, 2015).
Officer Arnoldo Sanchez #0568 was Taser
certified in 2013 and he attended Taser
recertification each year (2014, 2015).
(Dkt. # 59-25 (emphasis in original).) Plaintiffs offer
this evidence, along with Procedure 501 and 512 of the
SAPD General Manual, in support of their argument
that the City, “through its training academy, continued
to teach and train its officers to use their Taser without
any training on the consequences of multiple
discharges or discharges by more than one officer on
the same person or, the consequences of tasing
someone clearly exhibiting signs of a mental episode or
believed to be on drugs.” (Dkt. # 59 at 17.)

App. 60
In response, the City has attached as evidence the
affidavit of SAPD Deputy Chief Gustavo Guzman, who,
at the time of Norman’s death in April 2015, was the
Captain of the Professional Standards Division/
Internal Affairs of the SAPD. (Dkt. # 53-14.) As a result
of his position, Deputy Chief Guzman states that he is
familiar with SAPD’s policies and procedures contained
in the General Manual. (Id.) Deputy Chief Guzman
testifies, inter alia, that all officers are educated on the
policies and procedures contained in the General
Manual, including Procedure 501 “Use of Force”;
Procedure 502 “Warrantless Arrests, Search &
Seizure”; and Procedure 512 “Electronic Control
Devices.”11 (Id.) Rather than condone or permit the use
of excessive force, Deputy Chief Guzman testifies that
Procedure 501 provides in part that “officers shall use
only the level of force that is necessary to accomplish a
lawful police objective [and] any time force is used, the
officer shall apply a level of force that is reasonable for
the situation.” (Id. at 3.) Deputy Chief Guzman
explains that Procedure 501 provides a continuum of
force policy, which begins at the lowest level with the
officer’s presence and verbal communications and
extends up to intermediate weapon and deadly force,

11

See also Dkt. # 53-10, at 8–9, “Expert Report of Albert Ortiz”
(retired SAPD Chief of Police who opined, inter alia, that (1) the
General Manual and training curriculum is taught to every SAPD
officer during their six-month training at the SAPD Academy and
through additional 40 hours of required in-service training every
two years, and (2) SAPD officers employ a version of escalating
force, the Use of Force Continuum, that does not condone or permit
excessive force, but rather teaches levels of force to use reasonably
and proportionally to the situation at hand).

App. 61
“according to and proportional with the circumstances
of the situation.” (Id.)
Additionally, the City has presented evidence that
in order to serve as law enforcement personnel in for
SAPD, an officer must hold a peace officer license, the
requirements of which are dictated by the Texas
Legislature and Texas Commission on Law
Enforcement (“TCOLE”). (Dkt. # 53-10 at 8.) During
training required for licensing, officers participate in
use of force training. (Id.) Upon licensing, an officer
must also participate in mandatory continuing
education courses through TCOLE. (Id.) Both Officers
Flaig and Sanchez are licensed by TCOLE and
participated in training on use of force and force
options. (Id.)
Further, as for Plaintiffs’ arguments concerning
Procedure 512, according to the deposition testimony of
SAPD Officer Dezi Rios, the main allowable reason to
keep someone detained in a prone position is to get
somebody under control, and the level of control an
officer feels he or she has over a detainee may be
entirely “situational” and different compared to the
next officer. (Dkt. # 52-15 at 2–4.) Officer Rios testified
that SAPD officers are taught not to hog-tie persons
they have detained. (Id. at 4–5.) Officer Rios also
testified that he teaches a course on positional
asphyxia in the SAPD, and he uses teaching materials
that instruct officers to be aware of putting detainees
in positions that prevent them for breathing, such that
“the only time” the prone position should be used is
when officers are trying to get or maintain control. (Id.
at 2.)

App. 62
Additionally, in regard to Plaintiffs’ evidence
concerning the City’s decision not to train its Officers
that they “shall not” use a Taser device on persons
known to be under the influence of drugs, Plaintiffs
have not presented sufficient evidence that this
decision was so inadequate that the City was
deliberately indifferent to the “highly predictable
consequence” of a violation of constitutional rights. See
Canton, 489 U.S. at 390 n.10. The email evidence
indicates that the SAPD made a decision that such
language conflicted with its training in that officers
should be allowed “the opportunity to evaluate all the
information they received at the scene before they
decided to deploy or not deploy the ECD,” instead of a
blanket determination that the Taser should never be
used on a person known to be under the influence of
drugs. (Dkt. # 59-25.) Plaintiffs have failed to
specifically allege, nor offer any evidence, how this
training program is defective. See Roberts, 397 F.3d at
293. Nor have Plaintiffs presented sufficient evidence
of a pattern of violations that would have put the City
on notice that the ECD training was insufficient in
preventing the constitutional injury alleged in their
complaint. See Rios v. City of Del Rio, Tex., 444 F.3d
417, 427 (5th Cir. 2006).
In regard to Plaintiffs’ claims of failure to train on
the risk of positional asphyxia or the recognition of
excited delirium, Defendants point to the deposition
testimony and affidavit of Officer Jon Sabo, a
designated mental health officer in the SAPD and a
member of the Crisis Intervention Team who teaches
Crisis Intervention (“CIT”) classes. (Dkt. # 53-16 at 3.)
Per Officer Sabo, all officers in the SAPD must attend

App. 63
crisis intervention training, a 40 hour block of
instruction that the SAPD has been teaching and
mandating since 2010. (Id. at 3–4.) As part of the CIT
training, mental health officers such as Officer Sabo
provide training regarding Excited Delirium Syndrome,
how to recognize the symptoms, and what actions to
take when facing individuals experiencing excited
delirium. (Id. at 5–6.) Officer Sabo also testified that
although verbal de-escalation techniques are taught,
they often do not work with individuals experiencing
excited delirium, and that therefore, officers may use
physical restraint ranging from simply hands-on to
handcuffing a person. (Dkt. # 53-16 at 14.)
Where the individual Officers’ affidavits and other
evidence indicates that they were concerned about the
potential for Norman posing a danger to himself or the
Officers themselves, the Court finds – without further
controverting summary judgment evidence – that there
are no genuine issues of material fact as to whether the
City trains its officers on the proportional use of
reasonable force, the use of Tasers, and on the methods
for recognizing signs of excited delirium and the
dangers of positional asphyxia. The City’s summary
judgment evidence, uncontroverted, indicates that the
City has training regarding procedures for the use of
force, Tasers, and recognizing excited delirium and the
dangers of positional asphyxia, and that moreover, the
City is not “deliberately indifferent” to an individual’s
federally protected rights. See City of Canton, 489 U.S.
at 385–89. And in any event, proof of more than a
single instance of inadequate training is normally
required because such inadequacy can constitute
deliberate indifference to impose municipal liability,

App. 64
which is a “stringent” standard and which has not been
challenged by the summary judgment evidence. See
Upshur Cty., 245 F.3d at 459; Piotrowski, 237 F.3d at
579.
“In virtually every instance where a person has had
his or her constitutional rights violated by a city
employee, a § 1983 plaintiff will be able to point to
something the city ‘could have done’ to prevent the
unfortunate incident.” Canton, 489 U.S. at 392.
However, merely pointing to something that the City
could have done is insufficient to give rise to § 1983
liability; a plaintiff must show that the City was
deliberately indifferent. Plaintiffs have not met their
burden in making such a showing. Accordingly, the
Court will grant the City’s Motion for Summary
Judgment regarding Plaintiffs’ § 1983 claims.12
IX.

Equal Protection Claims

Plaintiffs also allege claims against the City for
violation of their Fourteenth Amendment right to equal
protection and due process. (Dkt. # 29 at 23–24.) The
equal protection clause of the Fourteenth Amendment
requires that persons similarly situated be treated the
same way. Dudley v. Angel, 209 F.3d 460, 463 (5th Cir.
2000). To state a claim for intentional discrimination
under § 1983, a plaintiff must allege that a state actor

12

To the extent Plaintiffs raise a failure to render medical aid
claim, summary judgment is also granted in favor of the City.
Plaintiffs have failed to specifically allege or provide sufficient
evidence that Procedure 601, “Prisoners,” is inadequate or that the
City is deliberately indifferent in training Officers on first aid
procedures and medical aid for persons in custody.

App. 65
intentionally discriminated against him because of his
membership in a protected class. Williams v. Bramer,
180 F.3d 699, 705 (5th Cir. 1999); Washington v. Davis,
426 U.S. 229, 247–48 (1976). Here, Plaintiffs have
offered no evidence in support of such claims;
accordingly, summary judgment is granted in favor of
the City on this basis.
X.

Chief Anthony Trevino

Anthony Trevino is sued in his individual capacity
and in his capacity as the Chief of Police and chief
policy maker for SAPD. (DKt. # 29 at 3.) To the extent
he is sued in his official capacity, those claims are
dismissed because “a suit against a governmental
officer ‘in his official capacity’ is the same as a suit
‘against [the] entity of which [the] officer is an agent.’”
McMillian v. Monroe Cnty., Ala., 520 U.S. 781, 785 n.2
(1997) (quoting Kentucky v. Graham, 473 U.S. 159, 165
(1985)). “[V]ictory in such an ‘official-capacity’ suit
‘imposes liability on the entity that [the officer]
represents.’” Id. (quoting Brandon v. Holt, 469 U.S.
464, 471 (1985)). The Court has already granted
summary judgment in favor of the City on Plaintiffs’
claims against it.
As for Plaintiffs’ suit against Trevino in his
individual capacity, Plaintiffs have failed to offer any
evidence in support of such claims. It is well settled
that “[t]here is no vicarious or respondeat superior
liability of supervisors under § 1983.” Rios v. City of
Del Rio, 444 F.3d 417, 425 (5th Cir. 2006). “Rather, a
plaintiff must show either the supervisor personally
was involved in the constitutional violation or that
there is a ‘sufficient causal connection’ between the

App. 66
supervisor’s conduct and the constitutional violation.”
Id. (quoting Evett v. DETNTFF, 330 F.3d 681, 689 (5th
Cir. 2003); see also Southard v. Tex. Bd. of Criminal
Justice, 114 F.3d 539, 550 (5th Cir. 1997) (“[T]he
misconduct of the subordinate must be affirmatively
linked to the action or inaction of the supervisor.”). The
Fifth Circuit has held that district courts “use the same
standard in assessing an individual supervisor’s
liability under § 1983” as that used “in assessing a
municipality’s liability.” Doe v. Taylor ISD, 15 F.3d
443, 453 (5th Cir. 1994) (en banc). Supervisory liability
under § 1983 requires a showing of the supervisor’s
“deliberate indifference” to the “known or obvious fact”
that constitutional violations would be committed by
subordinates based on the supervisor’s action (or
inaction), and this “generally requires that a plaintiff
demonstrate at least a pattern of similar
[constitutional] violations.” See Rios, 444 F.3d at 427
(quoting Johnson v. Deep E. Tex. Reg’l Narcotics, 379
F.3d 293, 309 (5th Cir. 2004)).
A supervisor may be liable for failure to supervise or
train a subordinate employee if: “(1) the supervisor
either failed to supervise or train the subordinate
official; (2) a causal link exists between the failure to
train or supervise and the violation of the plaintiff’s
rights; and (3) the failure to train or supervise amounts
to deliberate indifference.” Goodman v. Harris Cnty.,
571 F.3d 388, 395 (5th Cir. 2009) (quoting Smith v.
Brenoettsy, 158 F.3d 908, 911–12 (5th Cir. 1998)).
Similarly, “failure [by a supervisor] to adopt a policy
can be deliberately indifferent when it is obvious that
the likely consequences of not adopting a policy will be
a deprivation of constitutional rights.” Porter v. Epps,

App. 67
659 F.3d 440, 446 (5th Cir. 2011) (quoting Rhyne v.
Henderson Cnty., 973 F.2d 386, 392 (5th Cir. 1992)).
“Liability for failure to promulgate policy and
failure to train or supervise both require that the
defendant have acted with deliberate indifference.” Id.
at 446. The Fifth Circuit has held that “‘deliberate
indifference’ is a stringent standard of fault, requiring
proof that a municipal actor disregarded a known or
obvious consequence of his action.” Id. at 446–47
(quoting Connick v. Thompson, 563 U.S. 51, 61 (2011)).
To establish that a state actor disregarded a known or
obvious consequence of his actions, there must be
“actual or constructive notice” that “a particular
omission in their training program causes . . .
employees to violate citizens’ constitutional rights” and
the actor nevertheless “choose[s] to retain that
program.” Connick, 563 U.S. 51, 61 (citing Bd. of Cnty.
Comm’rs of Bryan Cnty. v. Brown, 520 U.S. 397, 407
(1997)). With respect to a failure-to train or failure-tosupervise claim, “[a] pattern of similar constitutional
violations by untrained employees is ordinarily
necessary to demonstrate deliberate indifference.”
Porter, 659 F.3d at 447 (citation omitted); see also
Thompson v. Upshur Cnty., 245 F.3d 447, 459 (5th Cir.
2001) (“Proof of more than a single instance of the lack
of training or supervision causing a violation of
constitutional rights is normally required before such
lack of training or supervision constitutes deliberate
indifference.”). Any less stringent standard, explained
the Fifth Circuit, would turn a failure-to-train claim (or
failure-to-promulgate-policy claim) into “de facto
respondeat superior liability.” Porter, 659 F.3d at 447
(quoting Bryan Cnty., 520 U.S. at 407).

App. 68
Here, Plaintiffs have failed to produce sufficient
evidence that any policy, practice, custom or procedure
of the City was the moving force behind any alleged
constitutional violation of Norman’s rights, or that
Chief Trevino was aware of the same and was
deliberately indifferent to those rights. Accordingly,
summary judgment is granted for Plaintiffs’ claims
against Anthony Trevino.
XI.

Remaining State Law Claims

To the extent any claims remain under state law,
the Court will grant summary judgment in favor of the
Officers and/or the City. Plaintiffs have not produced
sufficient evidence to overcome summary judgment in
support of such claims.
CONCLUSION
Based on the foregoing, the Court GRANTS IN
PART and DENIES IN PART the Officers’ Motion for
Summary Judgment (Dkt. # 53). The motion is
DENIED as to Plaintiffs’ § 1983 claim for excessive
force against the Officers because there is a fact issue
as to whether the Officers are entitled to qualified
immunity; the motion is GRANTED as to all other
claims against the Officers and those claims are
DISMISSED WITH PREJUDICE. The Court further
GRANTS the City’s Motion for Summary Judgment
(Dkt. # 54), and Plaintiffs’ claims against the City and
Chief Trevino are DISMISSED WITH PREJUDICE.
The Court will set a date for trial by separate order.
IT IS SO ORDERED.

App. 69
DATED: San Antonio, Texas, May 15, 2018.
/s/ David Alan Ezra
David Alan Ezra
Senior United States Distict Judge

App. 70

APPENDIX C

App. 71

APPENDIX D
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
CIVIL ACTION NO. 5:16-CV-77-DAE
[Dated November 22, 2017]
_______________________________________
ESTATE OF NORMAN COOPER,
)
DECEASED, NOBLE COOPER,
)
JENNIFER COOPER, NATHAN
)
COOPER, AND CARLY LOPEZ,
)
INDIVIDUALLY AND AS NEXT
)
FRIEND OF NASON COOPER
)
AND NEVON COOPER, MINORS
)
)
VS.
)
)
CITY OF SAN ANTONIO; OFFICER
)
OLIVER FLAIG; OFFICER ARNOLDO )
SANCHEZ; ANTHONY TREVINO,
)
INTERIM POLICE CHIEF
)
______________________________________ )
DECLARATION OF NATHAN LEE COOPER
“My name is Nathan Lee Cooper. I am over the age of
twenty-one (21) years old, and I am competent and
fully capable of making this declaration. I have
personal knowledge of the facts stated herein, and they
are all true and correct to the best of my knowledge.”

App. 72
“On or about April 19, 2015, I was in San Antonio,
Texas for my employment and staying at my parents,
Noble and Jennifer Cooper’s home located at 4827
Legend Well Drive, San Antonio, Texas 78247. I was
communicating with my brother, Norman Lee Cooper
and I had told Norman that he could stay at our
parent’s home but Norman indicated he was actually
going to stay at a friend’s house.”
“Just before 2:00 AM on April 19, 2015 I heard a car
pull up into my parent’s driveway which shortly after
I learned was Norman’s vehicle. I did not actually see
Norman driving his car. I was not expecting Norman
because he told me he was staying at a friend’s house.
I then heard Norman knocking on the front door of my
parent’s home and telling me to let him in the house.”
“I went to the front door to let Norman in and started
to open the door but realized I had not yet disconnected
the chain lock. Before I was able to remove the chain
lock Norman pushed the door as if the chain lock was
already disconnected causing the chain lock to break.
Norman broke the chain lock on the door but did not
break into the house.”
“Norman came into the house and began flickering the
lights on and off and when he reached for the chord on
the ceiling fan he pulled it off the fan. Norman grabbed
the house phone and began singing religious gospel into
it as if it was a microphone. He was also preaching to
me into the house phone as if it was a microphone.”
“I tried to calm Norman down but he kept singing
gospel and preaching. I wanted to go outside to call my
parents to tell them Norman wasn’t acting normal but

App. 73
when I went to the door Norman would tell me not to
because he believed demons were waiting outside.
Norman did not physically prevent me from leaving but
kept telling me to stay because demons were outside
and he wanted me to hear God’s word.”
“I became worried and concerned for Norman’s health
because Norman was disoriented, excited, incoherent,
and sweating profusely and I became scared because I
did not know what to do to help Norman. About ten
years prior I had seen Norman act this way and just
like this late evening (or early morning) Norman had
me concerned and scared because I did not know how
to handle the situation. I called 911 on the prior
occasion and a San Antonio Police Department officer
came to our house. The officer on this prior occasion
was very patient with Norman, talked to Norman
without getting upset or irritated, escorted Norman
outside our house into the front yard, and called EMS
who took Norman to the hospital. On this prior
occasion the officer did not use any force at all.”
“Accordingly, I texted my parents to tell them that
Norman was not acting normal and I was concerned
and to call the police because I did not know how to
help Norman. I then called 911 and told the operator
that my brother had come over and he was on drugs,
not acting normal, and I was scared and concerned.
The 911 operator said she could hear Norman in the
background and that the police were on the way.”
“Officer Flaig was the first officer to arrive. I did not
hear Officer Flaig knock on the door, ring the door bell,
or ask for permission to come in the house. Instead I
witnessed Officer Flaig just open the door and walk

App. 74
into the house. Officer Flaig never asked me or Norman
if we were okay. Officer Flaig never asked me if
Norman had hurt me or tried to hurt me or if Norman
had even touched me. Officer Flaig never asked me if
I wanted Norman to leave the house.”
“Norman continued to preach and sing and as Officer
Flaig walked towards him, Norman acknowledged him
respectfully as ‘officer.’ Norman continued to address
the officers respectfully throughout the entire
encounter up until Norman died. Officer Flaig asked if
he could speak to my parents but when I got them on
the phone Officer Flaig refused to speak with them.”
“Officer Flaig started talking to Norman and at first
was calm but after a few minutes Officer Flaig started
to yell and screamed for Norman to ‘shut the fuck up.’
Then when I went to grab my laptop from the couch
Officer Flaig yelled at me to ‘get back’ in an aggressive
and angry tone.”
“Then Officer Sanchez arrived at the house. Norman
kept telling the officers that I had been sinning and
that I was his brother and he wanted to help me.
Norman believed I was looking at pornography and was
trying to show Officer Flaig images or videos on my
phone even though I did not have pornography on my
phone. Officer Flaig then handed my phone to Officer
Sanchez and Officer Sanchez then gave my phone back
to me.”
“Officer Flaig then asked Norman for identification and
when Norman said it was in his bedroom he directed
Norman to go upstairs. Officer Sanchez told me to stay
downstairs and started to ask me some questions.

App. 75
Officer Sanchez asked me for my father’s phone
number but never asked me if he could speak to my
father. Officer Sanchez then went upstairs and I called
my father and started talking to him.”
“I then heard loud voices, the scuffling of feet, and
Tasers shocks. At the same time I heard my mom
through my dad’s phone yell for me to tell the officers
to stop Tasing my baby, referring to Norman. My mom
grabbed my dad’s phone and told me she was on the
house phone and to go tell the officers to stop. I
immediately ran upstairs and the only voice I could
hear was Norman’s who was screaming ‘Ahh!’ and
‘Thank you Jesus!’ several times. It sounded as if he
was saying this in response to the Taser shocks. It
sounded like Norman was in agony. As I reached the
top of the stairs I heard one or two more Taser shocks.”
“As I looked into the room Norman, Officer Flaig, and
Officer Sanchez were in I could see Norman on the
floor, face down, and handcuffed with his hands behind
his back while the officers were on top of Norman with
multiple wires connected to Norman’s body. I
specifically remember seeing at least one of the wires
that was connected to Norman still vibrating as if it
had just delivered electricity into Norman’s body.
Norman was not resisting or fighting and he seemed to
be unconscious as Norman was not moving. I know
Officer Sanchez was kneeling on top of Norman’s back
applying pressure for what I estimate was at least
twenty (20) seconds. I observed what looked to be
Officer Flaig applying pressure to Norman’s back as he
was over or on top of Norman but I cannot remember if
Officer Flaig was standing or kneeling.”

App. 76
“It was clear that Norman was having trouble
breathing and in medical distress. I never witnessed
Officer Flaig or Officer Sanchez check Norman’s pulse,
roll Norman on his back or side, or do anything to aide
Norman.”
“As I was sitting in the room with Officer Flaig, Officer
Sanchez, and Norman who was handcuffed, face down
on the floor, a bunch of other officers showed up. I
specifically remember a female officer take a flashlight
from her standing position and flash it at Norman’s
face and then say to the other officers that ‘oh yeah, he
will be fine.’ Another officer responded, ‘oh so you’re a
doctor now’ and the other officers began to laugh.
Immediately after this I saw Norman take a tortured
gasp and then he stopped breathing. This was my
brother’s last breath and I did not see any officer in the
room pay any attention to this or provide any aide to
Norman, instead I observed the officers continue to
chat amongst themselves as if Norman was fine. But
Norman wasn’t fine, he was not breathing and clearly
needed help but the officers did not seem to care.”
“At no point during the entire incident leading to
Norman’s death did Norman threaten me, Officer
Flaig, or Officer Sanchez or anyone else. Norman never
touched, made any physical contact, or attempt to
touch me. Norman never touched, made any physical
contact, or attempt to touch Officer Flaig or Officer
Sanchez. The only physical contact I observed was that
of Officer Flaig and Officer Sanchez on Norman.
Norman was never aggressive or violent to me, Officer
Flaig, or Officer Sanchez. I never saw Norman resisting
Officer Sanchez or Officer Flaig in any way. Norman

App. 77
never kicked at Officer Sanchez or Officer Flaig and
Norman did not kick the ground. Norman was not
acting normal and didn’t seem to understand what was
going on but Norman remained respectful to the
officers during the entire incident up until he died.”
“I am signing this declaration voluntarily, of my own
free will, free of any duress or coercion.”
“I further declare, certify, verify and state pursuant to
28 United States Code Section 1746 under penalty of
perjury under the laws of the United States of America
that the foregoing is true and correct.”
/s/ Nathan Lee Cooper
NATHAN LEE COOPER
On this the 22 day of November, 2017.

